APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16465
D.C. No. 3:18-cv-01869-JSC
Esteban Aleman Gonzalez; Eduardo Gutierrez
Sanchez, plaintiffs-appellees
v.
William P. Barr, Attorney General; Chad Wolf,
Acting Secretary, Department of Homeland
Security; James McHenry, Director, Executive
Office for Immigration Review; Department of
Justice; Christopher Santoro, Acting Chief
Immigration Judge, Executive Office for
Immigration Review, Department of Justice;
David W. Jennings, Field Office Director
for the San Francisco Field Office of U.S.
Immigration and Customs Enforcement,
Department of Homeland Security; David 0.
Livingston, Sheriff, Contra Costa County; Kristi
Butterfield, Facility Commander, West County
Detention Facility, Contra Costa County,*
defendants-appellants
Argued and Submitted: Nov. 13, 2019
Pasadena, California
Filed: Apr. 7, 2020
Pursuant to Federal Rule of Appellate Procedure 43(c)(2), Chad
Wolf is automatically substituted as the Acting Secretary of the U.S.
Department of Homeland Security and Christopher A. Santoro is
automatically substituted as the Acting Chief Immigration Judge of
the Executive Office for Immigration Review.

(la)

2a

Appeal from the United States District Court
for the Northern District of California
Jacqueline Scott Corley, Magistrate Judge, Presiding
OPINION
Ferdinand F. Fernandez, Milan D.
Before:
Smith, Jr., and Eric D. Miller, Circuit Judges.
M. Smith, Circuit Judge:
Esteban Aleman Gonzalez and Eduardo Gutierrez
Sanchez (Plaintiffs) represent a certified class of indi­
viduals who are subject to final removal orders and are
detained pursuant to 8 U.S.C. § 1231(a)(6), within our
court’s jurisdiction for six months or more, and who
have been or will be denied an individualized bond hear­
ing before an immigration judge (IJ).
Section 1231(a)(6) authorizes Defendants-Appellants
(hereinafter, the Government1) to detain aliens subject
1 We use the term “the Government” to refer collectively to the
following Defendants-Respondents who Plaintiffs sued in their offi­
cial capacities, including as substituted: (1) William P. Barr, United
States Attorney General, (2) Chad Wolf, Acting Secretary of the U.S.
Department of Homeland Security, (3) James McHenry, Director of
the Executive Office for Immigration Review (EOIR), (4) Christo­
pher A. Santoro, Acting Chief Immigration Judge, EOIR, (5) David
W. Jennings, Field Office Director for the San Francisco Field Office
of U.S. Immigration and Customs Enforcement (ICE), (6) David 0.
Livingston, Contra Costa County Sheriff, and (7) Kristi Butterfield,
Facility Commander, West County Detention Facility, Contra Costa
County. Our use of the uncapitalized term “the government” should
not be construed as a reference to the Defendants-Respondents.

3a
to final removal orders, or reinstated final removal or­
ders. In Diouf v. Napolitano, 634 F.3d 1081 (9th Cir.
2011) {Diouf II), a three-judge panel of our court applied
the canon of constitutional avoidance to construe
§ 1231(a)(6) as requiring an individualized bond hearing
before an IJ for an alien detained for six months or
longer when the alien’s release or removal is not immi­
nent. Id. at 1086, 1091-92 & n.13. In this case, Plain­
tiffs sought a preliminary injunction requiring the Gov­
ernment to provide class members with an individual­
ized bond hearing in accordance with Diouf II. Rely­
ing on our court’s decision in Singh v. Holder, 638 F.3d
1196 (9th Cir. 2011), Plaintiffs also sought for the Gov­
ernment to bear the burden of proof at such a hearing.
Concluding that it remained bound by Diouf II, the dis­
trict court granted the preliminary injunction. The
Government appeals, urging us to reverse and vacate.
We must decide whether Plaintiffs are likely to suc­
ceed on the merits of their claim that § 1231(a)(6) re­
quires the Government to provide class members with
an individualized bond hearing. As it argued unsuc­
cessfully to the district court, the Government princi­
pally argues that Diouf II is clearly irreconcilable with
the Supreme Court’s decision in Jennings v. Rodriguez,
138 S. Ct. 830 (2018), a decision that rejected our court’s
application of the canon of constitutional avoidance to
construe different immigration detention statutes.
Despite the district court’s reliance on our decision in
Diouf II, the Government further argues that the dis­
trict court impermissibly “re-applied” the canon to
§ 1231(a)(6) to grant the preliminary injunction. Ac­
cording to the Government, Clark v. Martinez, 543 U.S.
371 (2005), establishes that the Court’s construction of
§ 1231(a)(6) in Zadvydas v. Davis, 533 U.S. 678 (2001),

4a
is the single permissible application of the canon to the
provision.
The threshold issue we must resolve is whether
Diouf II is clearly irreconcilable with Jennings. As a
three-judge panel, we are bound by the prior decision of
another three-judge panel. Miller v. Gammie, 335
F.3d 889, 893, 899-900 (9th Cir. 2003) (en banc). This
rule gives way when, but only when, the earlier decision
is clearly irreconcilable with the holding or reasoning
of intervening authority from our court sitting en banc
or the Supreme Court. Id. at 893, 899-900. “The
‘clearly irreconcilable’ requirement is ‘a high stand­
ard.’” United States v. Robertson, 875 F.3d 1281, 1291
(9th Cir. 2017) (quoting Rodriguez v. AT & T Mobility
Servs. LLC, 728 F.3d 975, 979 (9th Cir. 2013)). “[I]f we
can apply our precedent consistently with that of the
higher authority, we must do so.” FTC v. Consumer
Def, LLC, 926 F.3d 1208,1213 (9th Cir. 2019) (emphasis
added).
We hold that Plaintiffs are likely to succeed on the
merits of their § 1231(a)(6) statutory claim.. Although
we recognize some tension between Diouf II and Jen­
nings, we cannot conclude that the decisions are so fun­
damentally inconsistent that we can no longer apply
Diouf II without running afoul of Jennings. We thus
conclude that we remain bound by Diouf II. For that
reason, we conclude further that the district court
did not err in relying on Diouf IPs construction of
§ 1231(a)(6) to require a bond hearing before an IJ after
six months of detention for an alien whose release or re­
moval is not imminent. Because Jennings did not in­
validate our constitutional due process holding in Singh,

5a
the district court also properly required the Govern­
ment to bear a clear and convincing burden of proof at
such a bond hearing to justify an alien’s continued de­
tention. Our conclusion that Dioufll remains control­
ling compels us to reject the Government’s remaining
challenges that effectively seek to relitigate Diouf II.
We conclude further that the preliminary injunction
complies with a proper reading of Clark. Based on
these determinations, we affirm the district court’s pre­
liminary injunction in full.
FACTUAL AND PROCEDURAL BACKGROUND
I.

Statutory Framework
Various provisions of the Immigration and National­
ity Act (INA) authorize the government to detain non­
citizens during immigration proceedings. See 8 U.S.C.
§§ 1225(b), 1226(a), 1226(c), and 1231(a). These stat­
utes are different textually and in their application.
“[T]hese statutes apply at different stages of an alien’s
detention.” Diouf v. Mukasey, 542 F.3d 1222, 1228 (9th
Cir. 2008) {Diouf I). “Where an alien falls within this
statutory scheme can affect whether his detention is
mandatory or discretionary, as well as the kind of review
process available to him if he wishes to contest the ne­
cessity of his detention.” Prieto-Romero v. Clark, 534
F.3d 1053, 1057 (9th Cir. 2008).
Section 1225(b)(1) and (b)(2) authorize the govern­
ment “to detain certain aliens seeking admission into
the country!.]” Jennings, 138 S. Ct. at 838. Pursuant
to §§ 1226(a) and (c), the government has the authority
to detain “aliens already in the country pending the out­
come of removal proceedings.” Id. Section 1231(a),
the detention provision at issue in this case, “authorizes

6a
the detention of aliens who have already been ordered
removed from the country.” Id. at 843.
Pursuant to § 1231(a), the Attorney General “shall re­
move the alien from the United States within a period of
90 days” when an alien is ordered removed. 8 U.S.C.
§ 1231(a)(1)(A). “During the removal period, the At8 U.S.C.
torney General shall detain the alien.”
§ 1231(a)(2). “If the alien does not leave or is not re­
moved during the removal period, the alien
. . .
shall be subject to supervision under regulations” set by
the Attorney General pending removal. Id. § 1231(a)(3).
Section 1231(a)(6) further provides that “certain catego­
ries of aliens who have been ordered removed, namely,
inadmissible aliens, criminal aliens, aliens who have vio­
lated their nonimmigrant status conditions, and aliens
removable for certain national security or foreign rela­
tions reasons, as well as any alien ‘who has been deter­
mined by the Attorney General to be a risk to the com­
munity or unlikely to comply with the order of re­
moval,’” Zadvydas, 533 U.S. at 688, “may be detained
beyond the removal period and, ifreleased, shall be sub­
ject to the terms of supervision in paragraph (3),”
8 U.S.C. § 1231(a)(6) (emphasis added).
In this circuit, detention pursuant to § 1231(a)(6) “en­
compasses aliens . . . whose collateral challenge to
[a] removal order (or a motion to reopen) is pending in
the court of appeals, as well as to aliens who have ex­
hausted all direct and collateral review of their removal
orders but who, for one reason or another, have not yet
been removed from the United States.” Diouf II, 634
F.3d 1085; see also Diouf I, 542 F.3d at 1230 (explaining
that the removal period in § 1231(a)(1) will commence
even if a stay of removal is entered while a federal court

i

7a
reviews an alien’s habeas petition pursuant to 28 U.S.C.
§ 2241 or considers a petition for review of a denial by
the Board of Immigration Appeals of an alien’s motion
to reopen).
The INA also authorizes the government to reinstate
a prior removal order against an alien who the govern­
ment believes has unlawfully reentered the United
States, with the order “reinstated from its original
date.” 8 U.S.C. § 1231(a)(5). Aliens with reinstated re­
moval orders may pursue limited forms of relief from
removal, including withholding of removal and protec­
tion pursuant to the Convention Against Torture.
Andrade-Garcia v. Lynch, 828 F.3d 829, 831 (9th Cir.
2016). In this circuit, aliens with reinstated removal
orders, including those who pursue these limited forms
of relief, are treated as detained pursuant to § 1231(a)(6).
Padilla-Ramirez v. Bible, 862 F.3d 881, 884-87 (9th Cir.
2017), amended by, 882 F.3d 826, 830-33 (9th Cir. 2018).
II.

The Proceedings in this Case

Plaintiffs Aleman Gonzalez and Gutierrez Sanchez
are natives and citizens of Mexico. The Government
reinstated prior removal orders against them in 2017
but placed each in withholding-only removal proceed­
ings after asylum officers determined that each has a
reasonable fear of persecution or torture in Mexico.
Both Plaintiffs requested a bond hearing before an IJ
after 180 days in detention. Different IJs, however,
denied the requests by reasoning that Jennings effec­
tively overruled Diouf II and thus deprived the IJs of
jurisdiction to conduct the bond hearing Diouf II would
require. Plaintiffs filed the complaint and petition for
a writ of habeas corpus on behalf of a putative class of

8a
similarly situated individuals detained in our court’s ju­
risdiction.
In their complaint-petition, Plaintiffs claim that the
bond hearing denials violate the INA, the Administra­
tive Procedure Act, and the U.S. Constitution’s Fifth
Amendment Due Process Clause. Plaintiffs rely on
Diouf II to allege that Defendants have denied them
bond hearings “[djespite clear Ninth Circuit precedent
establishing the right to a bond hearing for Plaintiffs
upon their detention becoming prolonged” as aliens de­
tained pursuant to § 1231(a)(6). Plaintiffs further al­
lege that Singh requires the Government to bear a clear
and convincing evidentiary burden of proof at such a
bond hearing. Alternatively, Plaintiffs claim that con­
stitutional due process requires these protections.
Plaintiffs moved for class certification on their statu­
tory and constitutional claims, and a preliminary injunc­
tion. The district court certified a class of § 1231(a)(6)
detainees in the Ninth Circuit for the statutory claims
only.2 The court also granted the preliminary injunction,
concluding that all preliminary injunction factors weighed
in Plaintiffs’ favor. The court enjoined the Government
from “detaining Plaintiffs and the class members pursuant
to [§] 1231(a)(6) for more than 180 days without providing
each a bond hearing before an IJ as required by Diouf II.”
At the Government’s request, the district court subse­
quently clarified that the certified class includes only indi­
viduals detained pursuant to § 1231(a)(6) who have “live
claims” before an immigration court, the BIA, or a circuit
2 Plaintiffs’ class certification motion excluded aliens detained pur­
suant to § 1231(a)(6) who are members of certified classes in litiga­
tions pending in the Central District of California and the Western
District of Washington.

9a
court of appeals, which means defenses against their re­
moval from the United States. The court further clari­
fied that, pursuant to Dioufll, the preliminary injunction
does not require a bond hearing for an alien whose release
or removal is imminent. Dioufll, 634 F.3d at 1092 n.13.
Subject to these clarifications, the Government timely ap­
pealed.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction over an appeal from the grant
of a preliminary injunction pursuant to 28 U.S.C.
§ 1292(a)(1). We review the grant of a preliminary in­
junction motion for an abuse of discretion. Adidas
Am., Inc. v. Skechers USA, Inc., 890 F.3d 747, 753 (9th
Cir. 2018). “[A] district court abuses its discretion
when it makes an error of law.” Cuviello v. City of Val­
lejo, 944 F.3d 816, 826 (9th Cir. 2019) (citation omitted).
ANALYSIS
“A plaintiff seeking a preliminary injunction must es­
tablish that he is likely to succeed on the merits, that he
is likely to suffer irreparable harm in the absence of pre­
liminary relief, that the balance of equities tips in his fa­
vor, and that an injunction is in the public interest.”
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20
(2008). Although the district court determined that all
preliminary injunction factors weighed in Plaintiffs’ fa­
vor, the Government asserts only that the district court
erred by concluding that Plaintiffs are likely to succeed
on the merits of the statutory claims. We therefore
limit our analysis to this factor.
The dispositive issue for Plaintiffs’ likelihood of suc­
cess on their § 1231(a)(6) statutory claims is whether, as

10a
the Government contends, Dioufll is clearly irreconcil­
able with Jennings. If the Government’s contention is
correct, then Diouf II cannot support the preliminary
injunction the district court granted.
Familiar principles guide our consideration of the
Government’s principal challenge to the preliminary in­
junction. In this circuit, a decision of a prior threejudge panel is controlling unless and until a superseding
ruling comes from higher authority, including the Su­
preme Court or a panel of our court sitting en banc.
Miller, 335 F.3d at 893, 899-900. “[T]he issues decided
by the higher court need not be identical in order to be
controlling. Rather, the relevant court of last resort
must have undercut the theory or reasoning underlying
the prior circuit precedent in such a way that the cases
are clearly irreconcilable.” Id. at 900. In cases of
“clear irreconcilability,” we “should consider [ourjselves
bound by the intervening higher authority and reject
the prior opinion of this court as having been effectively
overruled.” Id.
As we have already emphasized, “[t]he ‘clearly irrec­
oncilable’ requirement is ‘a high standard. > >> Robertson, 875 F.3d at 1291 (citation omitted). “It is not enough
for there to be ‘some tension’ between the intervening
higher authority and prior circuit precedent, or for the
intervening higher authority to ‘cast doubt’ on the prior
circuit precedent.” Lair v. Bullock, 697 F.3d 1200,
1207 (9th Cir. 2012) (internal citation omitted) (quoting
United States v. Orm Hieng, 679 F.3d 1131,1140-41 (9th
Cir. 2012), and United States v. Delgado-Ramos, 635
F.3d 1237,1239 (9th Cir. 2011) (per curiam)). “In order
for us to ignore existing Ninth Circuit precedent . . .
the reasoning and principles of [the later authority]

11a
would need to be so fundamentally inconsistent with our
prior cases that our prior cases cannot stand.” In re
Gilman, 887 F.3d 956, 962 (9th Cir. 2018) (alteration in
brackets added). But if we “can apply our prior circuit
precedent without running afoul of the intervening au­
thority, we must do so.” Lair, 697 F.3d at 1207 (inter­
nal quotations and citation omitted).
To set the stage for our analysis of whether Diouf II
is clearly irreconcilable with Jennings, we first discuss
the relevant precedents of the Supreme Court and our
court construing the immigration detention statutes.
We then consider the Government’s particular arguments
about how, in its view, Jennings undercuts Diouf II.
Finally, we address the Government’s argument that the
district court improperly re-applied the canon of constitu­
tional avoidance to § 1231(a)(6).
I.

Constructions of the Immigration Detention Stat­
utes
A.

Zadvydas v. Davis, 533 U.S. 678 (2001)

We turn first to the Supreme Court’s decision in
Zadvydas v. Davis, 533 U.S. 678 (2001). Zadvydas is
central to understanding our court’s application of the
canon of constitutional avoidance to all the immigration
detention statutes, as well as to understanding the Court’s
decision in Jennings.
In Zadvydas, the Court considered a federal habeas
challenge to detention pursuant to § 1231(a)(6) brought
by aliens with criminal convictions whom the govern­
ment had detained beyond § 1231(a)(2)’s initial 90-day
mandatory detention period. 533 U.S. at 682. The ques­
tion before the Court was whether, beyond the initial re-

12a
moval period, § 1231(a)(6) authorized indefinite deten­
tion or only detention for a period reasonably necessary
to secure the alien’s removal. Id.
Invoking the canon of constitutional avoidance,
the Court rejected the government’s argument that
§ 1231(a)(6) sets no limit on the permissible length of de­
tention beyond the removal period. Id. at 689. The
Court reasoned first that “[a] statute permitting indefi­
nite detention of an alien would raise a serious constitu­
tional problem” under the Fifth Amendment’s Due Pro­
cess Clause given the physical liberty at issue, the po­
tentially permanent civil confinement the statute could
authorize, and the limited “procedural protections avail­
able to the alien” pursuant to 8 C.F.R. § 241.4(d)(1)
(2001), pursuant to which “the alien bears the burden of
proving he is not dangerous[.]” Id. at 690-92. Against
the backdrop of these constitutional concerns, the Court
could not find in § 1231(a)(6)’s text a “clear indication of
congressional intent to grant the Attorney General the
power to hold indefinitely an alien ordered removed.”
Id. at 697. The Court explained that the statute’s use
of the word “may” in the phrase “may be detained” is
ambiguous and “does not necessarily suggest unlimited
discretion.” Id. The Court thus “read an implicit lim­
itation into” § 1231(a)(6), “limit[ing] an alien’s postremoval-period detention to a period reasonably neces­
sary to bring about that alien’s removal from the United
States.” Id. at 689.
Faced with the habeas petitions in that case, the
Court outlined how a habeas court should apply this con­
struction of § 1231(a)(6). Id. at 699. When removal is
no longer reasonably foreseeable, § 1231(a)(6) no longer
authorizes continued detention. Id. at 699-700. “In

13a
that case, . . . the alien’s release may and should be
conditioned on any of the various forms of supervised
release that are appropriate in the circumstances, and
the alien may no doubt be returned to custody upon a
violation of those conditions.” Id. at 700 (citing 8 U.S.C.
§§ 1231(a)(3); 8 C.F.R. § 241.5)). “[H]av[ing] reason to
believe . . . that Congress previously doubted the
constitutionality of detention for more than six months,”
the Court recognized six months as a presumptively rea­
sonable length of detention “for the sake of uniform ad­
ministration in the federal courts.” Id. at 701. “After
this 6-month period, once the alien provides good reason
to believe that there is no significant likelihood of re­
moval in the reasonably foreseeable future, the Govern­
ment must respond with evidence sufficient to rebut that
showing.” Id. The Court qualified that this “does not
mean that every alien not removed must be released af­
ter six months,” but rather “an alien may be [detained]
until it has been determined that there is no significant
likelihood of removal in the reasonably foreseeable fu­
ture.” Id.
B. This Court’s Pre-Jennings Constructions of the
Immigration Detention Statutes
Although Zadvydas concerned only § 1231(a)(6), that
decision led this court to “grapple[] in piece-meal fash­
ion with whether the various immigration detention
statutes may authorize indefinite or prolonged deten­
tion of detainees and, if so, may do so without providing
a bond hearing.” Rodriguez v. Robbins, 804 F.3d 1060,
1077 (9th Cir. 2015) (Rodriguez III) (quoting Rodriguez
v. Robbins, 715 F.3d 1127, 1134 (9th Cir. 2013) {Rodri­
guez II) (further quoting Rodriguez v. Hayes, 591 F.3d

14a
1105, 1114 (9th Cir. 2010) (Rodriguez I))).3
sions are relevant here.

Five deci­

First, in Casas-Castrillon v. Department of Home­
land Security, 535 F.3d 942 (9th Cir. 2008), our court
considered a habeas petition from a lawful permanent
resident whom the government had detained for nearly
seven years without providing an adequate opportunity
to challenge his detention. Id. at 944. We recognized
that § 1226(a) authorized the government to detain
Casas-Castrillon because he remained capable of being
removed, id. at 948-49, but we also recognized that
Casas-Castrillon’s nearly seven-year detention posed a
“constitutional question,” id. at 950. We declined to re­
solve that question because we could “find no evidence
that Congress intended to authorize the long-term de­
tention of aliens such as Casas[-Castrillon] without
providing them access to a bond hearing before an im­
migration judge.” Id.

3 Our court also identified the Court’s decision in Demore v. Kim,
538 U.S. 510 (2003), as important to our constructions of the immi­
gration detention statutes to address the constitutional issue of pro­
longed detention. See Rodriguez III, 804 F.3d at 1077. Demore,
however, is the earliest example of the Court’s rejection of our
court’s reliance on Zadvydas to construe the other immigration de­
tention statutes. We had construed § 1226(c) to require the gov­
ernment to provide a bail hearing with reasonable promptness to de­
termine whether the alien was a flight risk or a danger to the com­
munity. Kim v. Ziglar, 276 F.3d 523, 539 (9th Cir. 2002). Fore­
shadowing its reasoning in Jennings, the Court rejected that con­
struction by distinguishing Zadvydas's focus on § 1231(a)(6) as “ma­
terially different” from § 1226(c), noting that whereas the statute at
issue in Zadvydas involved “ ‘indefinite’ and ‘potentially permanent’
detention,” § 1226(c) involved detention “of a much shorter duration”
with a “definite termination point.” Demore, 538 U.S. at 527-29.

15a
Relying on an earlier decision of our court that ap­
plied the canon of constitutional avoidance to § 1226(c),
we determined that prolonged detention under § 1226(a)
is “permissible only where the Attorney General finds
such detention individually necessary by providing the
alien with an adequate opportunity to contest the neces­
sity of his detention.” Id. at 951 (relying on Tijani v.
Willis, 430 F.3d 1241, 1242 (9th Cir. 2005)).4 We rec­
ognized that “[§] 1226(a), unlike § 1226(c), provides such
authority for the Attorney General to conduct a bond
hearing and release the alien on bond or detain him if
necessary to secure his presence at removal.” Id. We
held that “§ 1226(a) must be construed as requiring the
Attorney General to provide the alien with such a hear­
ing” given the constitutional doubtfulness of prolonged
detention without an individualized determination of
dangerousness or flight risk. Id. (citing Tijani, 430
F.3d at 1242) (emphasis in original). “Thus an alien is
entitled to be released on bond unless the ‘government
establishes that he is a flight risk or will be a danger to the
community.’” Id. (quoting Tijani, 430 F.3d at 1242).

4 In Tijani, our court addressed the government’s detention of
an alien for two years and eight months pursuant to § 1226(c). 430
F.3d at 1242. We invoked Zadvydas to question the permissibil­
ity of a congressional statute authorizing detention “of this dura­
tion for lawfully admitted resident aliens who are subject to re­
moval.” Id. (citing Zadvydas, 533 U.S. at 690). We distinguished
Demore as a case “where the alien conceded deportability,” and
then proceeded to apply the canon of constitutional avoidance to
construe § 1226(c) to conditionally grant habeas relief unless the
government provided the alien with a bond hearing before an IJ
where the government bore the burden of justifying continued de­
tention. Id.

16a
Second, in Dioufll, we reversed a district court’s de­
nial of a preliminary injunction that would have required
individualized bond hearings pursuant to § 1231(a)(6).
634 F.3d at 1084. We “extended] Casas-Castrillon” to
§ 1231(a)(6), id. at 1086, such that “individuals detained
[therejunder . . . are entitled to the same proce­
dural safeguards against prolonged detention as individ­
uals detained under § 1226(a),” id. at 1084. We deter­
mined that “prolonged detention under § 1231(a)(6),
without adequate procedural safeguards, would raise
Id. at 1086 (quoting
‘serious constitutional concerns.
Casas-Castrillon, 535 F.3d at 950). We thus “applied]
the canon ... and construe[d] § 1231(a)(6) as re­
quiring an individualized bond hearing, before an immi­
gration judge, for aliens facing prolonged detention un­
der that provision.” Id. (quoting Casas-Castrillon,
535 F.3d at 951). We held further that “[s]uch aliens
are entitled to release on bond unless the government
establishes that the alien is a flight risk or will be a dan­
ger to the community.” Id.
In justifying this application of the canon to
§ 1231(a)(6) to require a bond hearing, we rejected the
government’s argument that § 1231(a)(6)’s text does not
expressly provide for release on bond as does § 1226(a)’s
text. We underscored that we had already construed
§ 1231(a)(6) to authorize release on bond and acknowl­
edged that the government’s own regulations permitted
release on bond for aliens detained pursuant to the pro­
vision. Id. at 1089 (citing Diouf I, 542 F.3d at 1234;
8 C.F.R. § 241.5(b)).
We also rejected the government’s argument that the
regulations it modified in the wake of the Court’s con­
struction of § 1231(a)(6) in Zadvydas provided sufficient

17a
safeguards to protect the liberty interests of § 1231(a)(6)
detainees. Id. at 1089 & n.10. We found “serious con­
stitutional concerns” with the government’s 180-day re­
view process (i.e., detention lasting six months) because
the regulations “do not provide for an in-person hearing,
they place the burden on the alien rather than the gov­
ernment and they do not provide for a decision by a neu­
tral arbiter such as an immigration judge.” Id. at 1091.
In the context of this discussion, we explained for the
first time that “[a]s a general matter, detention is pro­
longed when it has lasted six months and is expected to
continue more than minimally beyond six months.” Id.
at 1092 n.13; see also Rodriguez III, 804 F.3d at 1069
(“In Dioufll, we also adopted a definition of ‘prolonged’
detention ... for purposes of administering the
Casas[-Castrillon\ bond hearing requirement.” (citing
Dioufll, 634 F.3d at 1092 n.13)). Alluding to Zadvydas,
we explained that the “private interests at stake are pro­
found” at six months of detention, such that “a hearing
before an immigration judge is a basic safeguard for al­
iens facing prolonged detention under § 1231(a)(6).”
Dioufll, 634 F.3d at 1091-92.
Third, and not long after Diouf II, we explained in
Singh that “given the substantial liberty interests at
stake,” 638 F.3d at 1200, due process requires the gov­
ernment to prove “by clear and convincing evidence that
an alien is a flight risk or a danger to the community to
justify the denial of bond,” id. at 1203-04. Although Singh
concerned a bond hearing requirement that our court con­
strued § 1226(a) as requiring in Casas-Castrillon, Singh
was not a statutory construction decision. Instead, we
drew from the Supreme Court’s constitutional proce­
dural due process jurisprudence “plac[ing] a heightened
burden of proof on the State in civil proceedings in which

18a
the ‘individual liberty interests at stake . . . are
both particularly important and more substantial than
mere loss of money.’” Id. at 1204 (quoting Cooper v.
Oklahoma, 517 U.S. 348, 363 (1996), and citing Foucha
v. Louisiana, 504 U.S. 71, 80 (1992); Woodby v. INS, 385
U.S. 276, 285 (1966); Chaunt v. United States, 364 U.S.
350, 353 (I960)).
Fourth, in Rodriguez II, we affirmed a district
court’s preliminary injunction that required the govern­
ment to provide individualized bond hearings before an
IJ to class members detained pursuant to §§ 1225(b) and
1226(c). Rodriguez II, 715 F.3d at 1130-31. To avoid
the constitutional concerns posed by prolonged deten­
tion, we held that “§ 1226(c)’s mandatory language must
be construed ‘to contain an implicit ‘reasonable time’
limitation, . . . subject to federal court review. J JJ
Id. at 1138 (quoting Zadvydas, 533 U.S. at 682). After
the expiration of that implicit time limitation, the gov­
ernment’s authority to detain class members would shift
to § 1226(a). Id. (citing Casas-Castrillon, 535 F.3d at
948). Relying on Diouf II’s definition of prolonged de­
tention, we held that “subclass members who have been
detained under § 1226(c) for six months are entitled to a
bond hearing[.]” Id. (citing Diouf II, 634 F.3d at
1092 n.13). We acknowledged the government’s argu­
ment there that “Diouf II by its terms addressed deten­
tion under § 1231(a)(6), not § 1226(c) or § 1225(b),” but
we thought the conclusion “that detention always be­
comes prolonged at six months” was “consistent with the
reasoning of Zadvydas, Demore, Casas[-Castrillon\,
and Diouf //[.]” Id. at 1039. Finding “no basis” to
distinguish § 1225(b) from § 1226(c), we also held that
any mandatory detention pursuant to § 1225(b) was “im-

19a
plicitly time-limited” to six months, after which the gov­
ernment’s authority shifted to § 1226(a). Id. at 114344. The § 1225(b) subclass would thus be entitled to a
bond hearing in accordance with Casas-Castrillon’s con­
struction of § 1226(a). Id. (citing Casas-Castrillon,
535 F.3d at 948). Singh’s strictures would apply to the
§§ 1225(b) and 1226(c) subclasses. Id. at 1139, 1144.
Finally, Rodriguez III—the decision at issue in
Jennings—largely distilled the holdings of our decisions
construing the immigration detention statutes into a sin­
gle decision. There, we considered a grant of summary
judgment and corresponding permanent injunction for
a class of noncitizens who challenged their prolonged de­
tention pursuant to §§ 1225(b), 1226(a), 1226(c), and
1231(a) without individualized bond hearings to justify
continued detention. Rodriguez III, 804 F.3d at 1065.
We reversed the judgment and injunction insofar
as they concerned noncitizens detained pursuant to
§ 1231(a), explaining that the class was defined as non­
citizens “detained ‘pending completion of removal pro­
ceedings, including judicial review, 9 99 Id. at 1086. We
explained that a removal order could not be administra­
tively final for any class members, and thus “[sjimply
put, the § 1231(a) subclass does not exist.” Id. We
otherwise affirmed the judgment and injunction.
In Rodriguez III, we concluded that “the canon of
constitutional avoidance requires us to construe the
statutory scheme to provide all class members who are
in prolonged detention with bond hearings at which the
government bears the burden of proving by clear and
convincing evidence that the class member is a danger
to the community or a flight risk.” Id. at 1074. For
the §§ 1225(b) and 1226(c) subclasses, we reiterated our

20a
application of the canon in Rodriguez II to construe the
provisions as containing an implicit six-month time lim­
itation, after which the government’s detention author­
ity shifted to § 1226(a), thereby entitling detainees to a
bond hearing in accordance with Casas-Castrillon. Id.
at 1079-81 (discussing § 1226(c)), id. at 1081-84 (discuss­
ing § 1225(b)). We affirmed the injunction for the
§ 1226(a) subclass as “squarely controlled by our prece­
dents,” pointing principally to Casas-Castrillon. Id. at
1085. Such class members were “entitled to automatic
bond hearings after six months of detention.” Id.
We also addressed procedural protections for the
statutory bond hearings we construed § 1226(a) as re­
quiring, and to which all class members were entitled
based on our constructions of the immigration statutes
at issue. Relying on Singh, we affirmed the require­
ment that the government justify continued detention
by clear and convincing evidence. Id. at 1087. We
also determined, for the first time, that “the government
must provide periodic bond hearings every six months”
after an initial bond hearing “so that noncitizens may
challenge their continued detention as ‘the period of
Id. at 1089 (quoting Diouf
. . . confinement grows.
II, 634 F.3d at 1091, which in turn quoted Zadvydas, 533
U.S. at 701). The government petitioned for a writ of
certiorari, which the Supreme Court granted. Jen­
nings v. Rodriguez, 136 S. Ct. 2489 (2016).
C.

Jennings v. Rodriguez, 138 S. Ct. 830 (2018)

Our court’s constructions of §§ 1225(b), 1226(a), and
1226(c) were sharply criticized in Jennings. In the
Court’s opinion, we had “adopted implausible construc­
tions of the three immigration provisions at issue” to

21a
hold “that detained aliens have a statutory right to peri­
odic bond hearings under the provisions at issue.” 138
S. Ct. at 836. As the Court explained, “[t]he canon of
constitutional avoidance ‘comes into play only when, af­
ter the application of ordinary textual analysis, the stat­
ute is found to be susceptible of more than one construc­
tion.
Id. at 842 (quoting Clark, 543 U.S. at 385).
The Court found no textual basis for our construction of
those statutory provisions.
The Court began with §§ 1225(b)(1) and (b)(2). Ob­
serving that both provisions provide that an alien “shall
be detained,” id. at 837, 842, the Court explained that
“[r]ead most naturally, [the statutes] mandate detention
of applicants for admission until certain proceedings
have concluded,” id. at 842. The Court determined that
“[d]espite the clear language,” our court read an implicit
six-month time limitation regarding the length of deten­
tion into them. Id. The Court rejected our reading
because the provisions’ text did not “hint[] that those
provisions restrict detention after six months.” Id. at
843. The Court explained that “[sjpotting a constitu­
tional issue does not give a court the authority to rewrite
a statute as it pleases,” but instead “the canon permits
a court to *choos[e] between competing plausible inter­
pretations of a statutory text.’” Id. (quoting Clark,
543 U.S. at 381) (emphasis in original).
The Court also rejected our reliance on Zadvydas “to
graft a time limit onto the text of § 1225(b).” Id. The
Court explained that “Zadvydas concerned § 1231(a)(6),”
a different provision “authoriz[ing] the detention of al­
iens who have already been ordered removed from the
country.” Id. The Court explained that Zadvydas con­
strued § 1231(a)(6) to mean that an alien who is ordered

22a
removed may not be detained beyond a period reasona­
bly necessary to secure his removal, with six months as
the presumptively reasonable period. Id. According
to the Court, Zadvydas “justified this interpretation by
invoking the constitutional-avoidance canon” to “detect[]
ambiguity in the statutory phrase ‘may be detained.’”
Id. (emphasis in original). Characterizing Zadvydas as
“a notably generous application of the constitutionalavoidance canon,” the Court determined that we “went
much further” in construing §§ 1225(b)(1) and (b)(2).
Id.
The Court explained that we “failed to address
whether Zadvydas’s reasoning may fairly be applied in
this case despite the many ways in which the provision
in question in Zadvydas, § 1231(a)(6), differs materially
from those at issue here, §§ 1225(b)(1) and (b)(2).” Id.
For one, unlike § 1231(a)(6), the provisions “provide for
detention for a specified period of time.” Id. at 844.
Thus, detention under these statutes could not be indef­
inite like detention under § 1231(a)(6) could be without
a limiting construction. Second, whereas § 1231(a)(6)
uses the word “may,” §§ 1225(b)(1) and (b)(2) use the
phrase “shall.” Id. Thus, the latter provisions are
clearly mandatory, whereas § 1231(a)(6) is not. Finally, the Court found Zadvydas “particularly inapt” be­
cause Congress authorized the Attorney General to re­
lease aliens detained pursuant to §§ 1225(b)(1) and (b)(2)
for urgent humanitarian reasons or a significant public
benefit. Id. (citing 8 U.S.C. § 1182(d)(5)(A)). By “neg­
ative implication,” the Court read this to exclude any
other manner of release and to “preclude[] the sort of
implicit time limit on detention that we found in Zadvy­
das.'” Id.

23a
The Court deemed § 1226(c)’s language “even clearer.”
Id. at 846. The Court determined that § 1226(c) is not
silent on the length of permissible detention because it
mandates detention of certain aliens pending removal
proceedings. Id. The Court further determined that,
pursuant to § 1226(c)’s terms, the Attorney General
“may release” an alien detained pursuant to that provi­
sion ‘“only if the Attorney General decides’ both that
doing so is necessary for witness-protection purposes
and that the alien will not pose a danger or flight risk.”
Id. (quoting 8 U.S.C. § 1226(c)(2)) (emphasis in origi­
nal). Thus, the Court read this text to mean “aliens de­
tained under its authority are not entitled to be released
under any circumstances other than those expressly
recognized by the statute.” Id.
Turning to § 1226(a), the Court rejected our court’s
imposition of “procedural protections that go well be­
yond the initial bond hearing established by existing
regulations—namely, periodic bond hearings every six
months in which the Attorney General must prove by
clear and convincing evidence that the alien’s continued
detention is necessary.” Id. at 847. According to the
Court, “[njothing in § 1226(a)’s text—which says only
that the Attorney General ‘may release’ the alien ‘on
. . . bond’—even remotely supports the imposition of
either of those requirements.” Id.5 The Court ulti-

6 Jennings also rejected “layer[ingl” onto § 1226(a) a procedural
requirement that would require an IJ to consider “the length of
detention prior to a bond hearing ... in determining whether
the alien should be released.” 138 S. Ct. at 848. Neither Diouf
II, nor the district court’s preliminary injunction require this.
Thus, this aspect of Jennings is inapposite to this appeal.

24a
mately remanded for consideration of the plaintiffs’ con­
stitutional due process challenges to the statutes at is­
sue. Id. at 851.
Jennings clearly invalidated aspects of our court’s
prior constructions of §§ 1225(b), 1226(a), and 1226(c).
About this, we have no doubt. See Rodriguez v. Marin,
909 F.3d 252, 255 (9th Cir. 2018) (“InJenningsU, the Su­
preme Court held that we misapplied the canon of con­
stitutional avoidance to hold that certain immigration
detention statutes, namely 8 U.S.C. §§ 1225(b), 1226(a),
and 1226(c), implicitly contain a reasonableness deter­
mination after which due process concerns require that
persons in prolonged mandatory detention are entitled
to individualized bond hearings and possibly, conditional
release.”). But this appeal requires us to determine
the impact of Jennings on Diouf II’s construction of
§ 1231(a)(6), if any.
II.

Diouf II Is Not Clearly Irreconcilable with Jennings

Implicitly acknowledging that Jennings did not con­
cern our construction of § 1231(a)(6), the Government
urges us to conclude that Jennings has invalidated
Diouf II and therefore to conclude further that we are
no longer bound by Diouf II. See Miller, 335 F.3d at
893.
The scope of our inquiry into whether Diouf II is
clearly irreconcilable with Jennings is limited. This in­
quiry does not call upon us to opine on whether Diouf II
reached the right result, nor to determine whether we
would construe § 1231(a)(6) differently. See Close v.
Sotheby’s, Inc., 894 F.3d 1061, 1073-74 (9th Cir. 2018)
(“[T]he fact that we might decide a case differently than
a prior panel is not sufficient grounds for deeming the

25a
[prior] case overruled.”). Instead, we must determine
whether the Government’s arguments satisfy the “high
standard” of clear irreconcilability that governs in this
circuit. Robertson, 875 F.3d at 1291. “[I]f we can ap­
ply our precedent consistently with that of the higher
authority, we must do so.” FTC, 926 F.3d at 1213 (emphasis added). “Nothing short of ‘clear irreconcilabil­
ity’ will do.” Close, 894 F.3d at 1073.
The Government advances three overlapping argu­
ments to persuade us that Jennings effectively over­
ruled Dioufll. First, the Government argues that Diouf
II’s application of the canon of constitutional avoidance
to § 1231(a)(6) contravenes Jennings’s mode of applying
the canon to the other immigration detention statutes.
Second, the Government argues that Jennings’s rejec­
tion of construing § 1226(a) to require certain proce­
dural protections forecloses Diouf II’s construction of
§ 1231(a)(6). Third, the Government argues that Diouf
II is no longer good law because Jennings reversed a
decision of our court that applied Casas-Castrillon’s
construction of § 1226(a), a decision on which Diouf II
relied.
We consider and ultimately reject each of the Gov­
ernment’s arguments. Although we recognize some ten­
sion between Diouf II and Jennings, the Government
has not persuaded us that Dioufll is “so fundamentally
inconsistent with” Jennings that we may overrule Diouf
II now. In re Gilman, 887 F.3d at 962. Apart from
rejecting the Government’s arguments, we find addi­
tional support for the conclusion that Diouf II is not
clearly irreconcilable with Jennings in the Third Cir­
cuit’s decision in Guerrero-Sanchez v. Warden York

26a
County Prison, 905 F.3d 208 (3d Cir. 2018), which ex­
pressly adopted Diouf IPs construction of § 1231(a)(6)
in the wake of Jennings.
A.

Diouf IPs Application of the Canon of Constitu­
tional Avoidance

The Government’s core contention is that Diouf IPs,
application of the canon of constitutional avoidance to
§ 1231(a)(6) runs afoul of Jennings. We understand
this argument to concern two points specific to Diouf IPs
interpretation of § 1231(a)(6). First, the Government ar­
gues that Jennings abrogated our application of the canon
of constitutional avoidance to § 1231(a)(6) in Diouf II.
Second, the Government contends that Jennings overrides
the conclusion that § 1231(a)(6) may be construed to au­
thorize release on bond and thus Diouf IPs application of
the canon to construe § 1231(a)(6) as requiring a bond
hearing cannot stand after Jennings.6
In defense of Diouf II, Plaintiffs argue that in Jen­
nings, the Court “explicitly reaffirmed its prior holding in
Zadvydas that [§] 1231(a)(6) is amenable to the canon of
Although we agree that
constitutional avoidance.”
Zadvydas plays an important role in our analysis given
Jennings’s discussion of that decision, we do not think that
the clear irreconcilability analysis here is as simple as
6 We distinguish these arguments from the related, yet distinct is­
sue of whether Diouf II properly construed § 1231(a)(6) to require a
bond hearing after six months of detention. We consider that issue
in our analysis of the Government’s argument regarding Jennings’s
rejection of our court’s construction of §1226(a) to require “periodic
bond hearings” after six months of detention, beyond the bond hear­
ing that the government’s regulations already provided at the outset
of detention for an alien detained pursuant to the government’s
§ 1226(a) detention authority.

27a
Plaintiffs posit, The Government does not challenge
whether the canon may be applied to § 1231(a)(6) at all, but
rather contends that Jennings shows that Diouf II im­
properly applied the canon to construe § 1231(a)(6) as re­
quiring a bond hearing. As Plaintiffs recognize, Zadvydas did not construe § 1231(a)(6)in this manner. Thus, we
must consider the distinct question of whether Diouf II’s
particular application of the canon runs afoul of Jennings.
The Government tells us that Diouf IPs application
of the canon runs afoul of Jennings because, in the Gov­
ernment’s view, Diouf II merely spotted a constitutional
issue regarding prolonged detention that it solved by
applying the canon to “insert” a bond hearing require­
ment into § 1231(a)(6). Pointing to the Court’s rejec­
tion in Jennings of our application of the canon to the
other immigration detention statutes, the Government
invites us to reject Diouf IPs construction of § 1231(a)(6)
as erroneously requiring “the very same relief that the
Supreme Court found inconsistent with three distinct
immigration statutes.”
Although we acknowledge the superficial appeal of
the Government’s suggestion, it carries little weight for
us in our clear irreconcilability analysis. As a general
matter, “we ‘must be careful not to apply the rules ap­
plicable under one statute to a different statute without
Murray v. Mayo
careful and critical examination.
Clinic, 934 F.3d 1101, 1106 (9th Cir. 2019) (quoting
Gross v. FBL Fin. Servs., Inc., 557 U.S. 167,174 (2009)).
That admonition carries force here. In no fewer than
ten instances, the Court expressly qualified in Jennings
that it rejected our application of the canon to the stat­
utory provisions “at issue” there. Jennings, 138 S. Ct.

28a
at 836, 839, 842, 843, 844, 850, 851. The Court’s re­
peated use of that limiting language strongly suggests
that we should not read the Court’s rejection of our ap­
plication of the canon to the other immigration detention
statutes as alone undercutting Diouf IVs application of
the canon to § 1231(a)(6). As we discuss in Part II.B.3,
this conclusion is inescapable given the material textual
differences between § 1231(a)(6) and the other immigra­
tion detention statutes, a point that the Court under­
scored throughout its analysis in Jennings.
Our dissenting colleague takes issue with our obser­
vation that Jennings repeatedly qualified that its focus
was on the statutory provisions at issue there, namely
§§ 1225(b), 1226(a), and 1226(c). The dissent contends
that Jennings's repeated and express limitations do not
deprive that decision “of all persuasive force” in the
clear irreconcilability inquiry presented here. Dissent
at 61 n.2. (quoting Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 351 (2013)). Drawing on the recent
decision in Murray v. Mayo Clinic, 934 F.3d 1101 (9th
Cir. 2019), in which a three-judge panel of our court con­
cluded that an earlier circuit precedent was clearly ir­
reconcilable with two intervening Supreme Court deci­
sions, the dissent argues “that Jennings and Diouf II
analyzed different statutes is not dispositive of their ir­
reconcilability.” Dissent at 62 n.2. We do not under­
stand this critique.7 We have not described Jennings's

7 We similarly do not understand the dissent’s reliance on Mur­
ray’s clear irreconcilability analysis. Murray addressed the con­
tinued viability of our court’s holding in Head v. Glacier Northwest,
Inc, 413 F.3d 1053 (9th Cir. 2005) that Title I of the Americans with
Disabilities Act (ADA) requires only a showing that disability was a

29a
repeated qualifications regarding its limited focus on
the statutory provisions at issue there as dispositive of
the clear irreconcilability analysis. Instead, our obser­
vation leads us to reject the Government’s simplistic ar­
gument that the mere fact that Jennings invalidated our
court’s application of the canon to other immigration de­
tention statutes alone gives us license to overrule Diouf
II. See Shaibi v. Berryhill, 883 F.3d 1102,1109 (9th Cir.
2018) (amended opinion) (concluding that the Supreme
Court’s “express limitation on its holding” in the inter­
vening decision did not render the prior circuit decision
clearly irreconcilable with the intervening decision).
motivating factor to prove a violation. The relevant statutory pro­
vision prohibited discrimination “on the basis of disability.” 42
U.S.C. § 12112(a). After Head, the Court interpreted the phrase
discrimination “because of such an individual’s age” in the Age Dis­
crimination in Employment Act (ADEA) to require but-for causation
and rejected a motivating factor analysis. Gross v. FBL Fin. Servs.,
Inc., 557 U.S. 167,177-78 (2009). The Court subsequently held that
the phrase “because of” in Title VII’s anti-retaliation provision also
requires but-for causation, again rejecting the motivating factor
standard. Nassar, 570 U.S. at 351-53. The Murray panel deter­
mined that Head is clearly irreconcilable with Gross and Nassar’s
interpretation of similar statutory text and held that Title I requires
but-for causation as well. Murray, 934 F.3d at 1106 (“Under Gross,
the phrase ‘on the basis of disability’ indicates but-for causation.”);
id. (reasoning that Nassar, 570 U.S. at 350, explains that Gross’s
holding that “because of,” “by reason of,” “on account of,” and “based
on” all indicate a but-for causal relationship). Contrary to the dis­
sent’s suggestion, this case is not Murray. Unlike the provisions
discussed there, we are not confronted with nominal and immaterial
differences between the provisions at issue in Jennings and
§ 1231(a)(6). In reining in our court’s reliance on Zadvydas and the
canon to construe the immigration detention statutes at issue in Jennings, the Court made it eminently clear that the textual differences
amongst the statutes are material. See Jennings, 138 S. Ct. at 843.

30a
More critically, as we explain in Part II.B.3, it is the ma­
terial textual differences amongst the immigration de­
tention statutes that Jennings expressly and repeatedly
recognized that give Jennings's, treatment of the other
statutory provisions little weight in our clear irreconcil­
ability analysis.
Focusing squarely on Diouf II, the Government ar­
gues more narrowly that § 1231(a)(6) cannot be con­
strued to require an individualized bond hearing be­
cause the provision does not expressly use the word
“bond.” The government raised this very argument in
Diouf II. 634 F.3d at 1089. But now relying on Jen­
nings, the Government contends that Diouf II runs
afoul of Jennings's admonition that “[s]potting a consti­
tutional issue does not give a court the authority to re­
write a statute as it pleases.” 138 S. Ct. at 843.
This argument is not without some appeal. The
Government points us only to Part III of Diouf II. In
a single paragraph, our court identified constitutional
concerns with “prolonged detention under § 1231(a)(6),
without adequate procedural protections[.]” Diouf II,
634 F.3d at 1086. “To address those concerns,” we “ap­
plied] the canon of constitutional avoidance and construe[d] § 1231(a)(6) as requiring an individualized bond
hearing, before an immigration judge, for aliens facing
prolonged detention under that provision.” Id. (cit­
ing Casas-Castrillon, 535 F.3d at 951). This portion of
Diouf II contained no analysis regarding the canon’s ap­
plication to § 1231(a)(6)’s text. We also recognized
elsewhere in Diouf II that § 1231(a)(6) does not explic­
itly use the word “bond.” Id. at 1089. These aspects
of Diouf II give us pause in light of Jennings, but only
briefly.

31a
In Dioufll, we recognized that the canon is a tool of
statutory construction that applies when an act of Con­
gress raises a serious constitutional doubt. Diouf II,
634 F.3d at 1086 n.7. And we recognized that a federal
court utilizes the canon to ‘“decid[e] which of two plau­
Id. at 1088
sible statutory constructions to adopt[.]
(quoting Clark, 543 U.S. at 380-81). Contrary to the
Government’s contention that Diouf II did not grapple
with § 1231(a)(6)’s text to justify its application of the
canon, Dioufll did so. Section 1231(a)(6) provides that
“if released” from detention beyond the removal period,
an alien “shall be subject to the terms of supervision
in [§ 1231(a)](3).” 8 U.S.C. § 1231(a)(6). In Dioufll,
although we recognized that § 1231(a)(6) does not use
the word “bond,” we “ha[d] no doubt that bond is also
authorized under § 1231(a)(6), as we have held and as
Department of Homeland Security (DHS) regulations
acknowledge.” 634 F.3d at 1089. (citing Diouf I, 542
F.3d at 1234; 8 C.F.R. § 241.5(b)) (emphasis added).8
We fail to see how Jennings undercuts this articulation
and application of the canon.
Jennings “expressly looked” to the same underlying
principles and applied the canon “consistent with th[ose]
principles!!]” Lair, 697 F.3d at 1207. Jennings first
affirmed that the canon applies “[w]hen ‘a serious doubt’
is raised about the constitutionality of an act of Con­
gress,” pursuant to which “‘ . . . this Court will first
ascertain whether a construction of the statute is fairly
8 8 C.F.R. § 241.5 is a regulation that applies to aliens who the gov­
ernment releases from § 1231(a)(6) detention. The regulation pro­
vides that an officer may require the posting of a bond to ensure an
alien complies with the conditions of a supervision order. Id. As
Plaintiffs acknowledge, this regulation remains in effect.

32a
possible by which the question may be avoided.’” Jen­
nings, 138 S. Ct. at 842 (quoting Crowell v. Benson, 285
U.S. 22, 62 (1932)). Jennings then reiterated that “the
canon permits a court ‘to choos[e] between competing
plausible interpretations of a statutory text.’” Id. at
843 (quoting Clark, 543 U.S. at 381) (emphasis in origi­
nal omitted). Jennings reiterated what the Court had al­
ready said about the canon in several cases decided long
before our DioufII decision. See United States v. Locke,
471 U.S. 84, 96 (1985) (“We cannot press statutory con­
struction ‘to the point of disingenuous evasion’ even to
avoid a constitutional question.”) (quoting George Moore
Ice Cream Co. v. Rose, 289 U.S. 373, 379 (1933)); see also
Clark, 543 U.S. at 381, 385; United States v. Oakland
Cannabis Buyers’ Co-op., 532 U.S. 483, 494 (2001).
The Government and the dissent conspicuously ig­
nore that Diouf II articulated and relied on the same
principles governing application of the canon as Jen­
nings. We have explained, however, that when an in­
tervening decision from a higher authority does not
“change the state of the law,” but instead “clarifie[s] and
reinforce[s]” law that existed at the time of the prior cir­
cuit decision, it is unlikely to satisfy the Miller standard.
Lair, 697 F.3d at 1207; see also Nat’l Fed’n of the Blind
v. United Airlines, Inc., 813 F.3d 718, 728 (9th Cir. 2016)
(reasoning in part that a prior circuit decision was “not
so ‘clearly irreconcilable’” with an intervening Supreme
Court decision because the intervening decision did not
“represent a significant shift” in the relevant jurispru­
dence). The dissent identifies nothing new in Jennings
regarding the canon’s application that Diouf II failed to

33a
articulate in applying the canon.9 As our analysis shows,
Jennings did not do so but rather engaged in statutoryspecific applications of the canon. We thus reject the
argument that Diouf IPs application of the canon to
§ 1231(a)(6) is clearly irreconcilable with Jennings's,
mode of applying the canon.10
We also reject the Government’s contention that Jen­
nings overrides our court’s conclusion that § 1231(a)(6)
authorizes release on bond—a conclusion central to Diouf
II’s application of the canon to the statute. Diouf IPs
construction of § 1231(a)(6) to require a bond hearing
plainly followed from two of our decisions that construed

9 Our court did not decide Diouf II in a statutory vacuum. Ra­
ther, that decision’s construction of § 1231(a)(6) followed Zadvydas,
which identified ambiguity in § 1231(a)(6)’s text regarding the gov­
ernment’s authority to detain an alien, and two earlier circuit prece­
dents which construed § 1231(a)(6) to authorize release on bond.
Diouf I, 542 F.3d at 1234; Doan v. I.N.S., 311 F.3d 1160 (9th Cir.
2002). Diouf II relied on these decisions to apply the canon. See
Diouf II, 634 F.3d at 1087-88, 1091-92 & nn.10-13 (referring to
Zadvydas on multiple occasions in the context of applying the
canon); id. at 1089 (referring to Diouf I, which in turn relied on
Doan).
10 For the first time, in its reply brief, the Government argues that
Jennings established a framework that “obligated” the district court
to look first to “Zadvydas’s construction of § 1231(a)” and then to
consider Diouf II’s application of the canon of constitutional avoid­
ance to determine whether Diouf II comported with Zadvydas.
We do not normally consider arguments raised for the first time in a
reply brief. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
2009). Nevertheless, even considering the argument, we readily
reject it for the simple reason that the Government reads into Jen­
nings a “framework” that the Court neither articulated, nor even
hinted at.

34a
the statute to encompass bond as a condition of release
from detention that the statute authorizes.
We first construed § 1231(a)(6) to allow an alien’s re­
lease on bond in Doan v. I.N.S., 31.1 F.3d 1160 (9th Cir.
2002), a case we decided shortly after Zadvydas.
There, we observed that §§ 1231(a)(3) and 1231(a)(6) au­
thorize an alien’s release from detention on terms of su­
pervision. We determined that “a bond is well within
the kinds of conditions contemplated by the Supreme
Court in Zadvydas, where the Court observed that 8
C.F.R. § 241.5 establishes conditions of release.” Id. at
1161 (citing Zadvydas, 533 U.S. at 688-89, 695-96).
Pursuant to that regulation, the government had re­
quired an alien to post bond as a condition of release.
Id. Thus, we rejected the alien’s “contention that be­
cause a bond is not expressly listed as a condition in the
statute, imposition of any bond as a condition of release
is unlawful.” Id. at 1162. Building on Doan, in Diouf
I, we rejected the government’s argument that “Diouf
was statutorily ineligible for release on bond” as an alien
detained pursuant to § 1231(a)(6) because “[w]e have
specifically construed § 1231(a)(6) to permit release on
bond.” DioufI, 542 F.3d at 1234 (citing Doan, 311 F.3d
at 1160).
Relying on these earlier precedents, Diouf II applied
the canon of constitutional avoidance to construe
§ 1231(a)(6) not only as authorizing release on bond, but
as requiring a bond hearing in light of the constitutional
issue of prolonged detention. The Government does
not acknowledge our decisions construing § 1231(a)(6)’s
allowance for release to encompass release on bond, nor
does the Government acknowledge Diouf IPs reliance
on them. Diouf II, 634 F.3d at 1089 (citing Diouf I, 542

35a
F.3d at 1234; 8 C.F.R. § 241.5(b)). Were we to accept
the Government’s argument that § 1231(a)(6) does not
even authorize release on bond, we would have to abro­
gate not only Diouf II, but also Doan and Diouf I, on
which Diouf II’s analysis of § 1231(a)(6) rested.11 But
neither Doan nor DioufI relied on the canon to construe
§ 1231(a)(6), and thus Jennings does not undercut either
of them. We otherwise see nothing in either decision
that is clearly irreconcilable with Jennings and there­
fore we are not free to overrule them. Miller, 335 F.3d
at 893. Because Jennings does not affect these deci­
sions, we reject the Government’s first set of arguments.
B.

Jennings's Rejection of Construing § 1226(a) to
Require Certain Procedural Protections Does Not
Undercut Diouf II
Jennings rejected, in relevant part, the addition of
two procedural protections onto § 1226(a): (1) “peri­
odic bond hearings every six months,” (2) “in which the
Attorney General must prove by clear and convincing

11 The dissent sees “no ineluctable reason” why we would need to
overrule these precedents to accept the Government’s argument,
Dissent at 65 n.12, and explains them away as merely concerned
with the government’s authority to release an alien on bond to ar­
rive at the conclusion that Diouf II failed to identify a plausible
basis in § 1231 (a)(6)’s text for a bond hearing requirement, id. at
63-66. We do not understand this reasoning. Whether a statute
authorizes release on bond is the necessary predicate to whether
that statute can be construed to require such release pursuant to a
bond hearing. Ignoring these commonsense propositions, the
dissent elides Diouf II’s application of the canon to construe
§ 1231(a)(6) not only to provide for a bond hearing, but as requiring
a bond hearing after six months of detention to avoid the constitu­
tional problem of prolonged detention.

36a
evidence that the alien’s continued detention is necessary[.]” Id. at 847-48. The Government contends
that § 1231(a)(6)’s “operative language directly mirrors”
§ 1226(a) because both provisions provide that the gov­
ernment may detain an alien, and thus Jennings fore­
closes construing § 1231(a)(6) to require these protec­
tions as well. More sweepingly, the Government sug­
gests that Jennings rejected construing § 1226(a) to re­
quire a bond hearing at all, thereby also undercutting
DiouflFs construction of § 1231(a)(6) to require a bond
hearing. We dispose readily of two of the Government’s
arguments, and then turn to the issue of “periodic bond
hearings.”
1. Jennings Does Not Invalidate Singh’s Consti­
tutional Due Process Burden of Proof Hold­
ing
We reject first the Government’s reliance on Jen­
nings’s rejection of construing § 1226(a) to require the
government to justify an alien’s continued detention by
clear and convincing evidence. Although Jennings un­
doubtedly rejected construing the statute to require
such a burden, that rejection is inapposite here.
Contrary to the Government’s suggestion, Diouf II
did not construe § 1231(a)(6) to impose such a burden,
nor did we premise our determination that the govern­
ment must meet such a burden on construing any of the
immigration detention statutes. In Singh, we explained
that, “[njeither Casas-Castrillon, nor any other Ninth
Circuit, statutory or regulatory authority specifies the
appropriate standard of proof at a Casas[-Castrillon]
bond hearing.” 638 F.3d at 1203 (emphasis added).
Rather than construe any statute, we determined that

37a
constitutional procedural due process required the gov­
ernment to meet the clear and convincing burden of
proof standard. Singh, 638 F.3d at 1203-04; see also
Kashem v. Barr, 941 F.3d 358, 380 (9th Cir. 2019) (ac­
knowledging Singh’s clear and convincing evidence bur­
den as a procedural due process standard “which applies
in a range of civil proceedings involving substantial dep­
rivations of liberty.”). Rodriguez III, in turn, relied on
Singh to affirm a clear and convincing burden of proof
for bond hearings held pursuant to our constructions of
the immigration detention statutes. Rodriguez III,
804 F.3d at 1087. Thus, Jennings’s rejection of layer­
ing such a burden onto § 1226(a) as a matter of statutory
construction cannot undercut Diouf II, nor undercut
our constitutional due process holding in Singh.
2. Jennings Did Not Reject Reading § 1226(a) to
Authorize a Bond Hearing
Second, we reject the Government’s reading of Jen­
nings as foreclosing construction of § 1226(a) to author­
ize a bond hearing at all. Rather than focus on the
Court’s § 1226(a) analysis, the Government misdirects
us to the Court’s observation that “neither § 1225(b)(1)
nor § 1225(b)(2) says anything whatsoever about bond
hearings.” Jennings, 138 S. Ct. at 842. The Court, how­
ever said no such thing about § 1226(a).
Section 1226(a) provides that the Attorney General
“may release” an alien detained pursuant to that provi­
sion “on bond” or “on conditional parole.” 8 U.S.C.
§ 1226(a)(2)(A), (B). The Court expressly acknowledged
that “[fjederal regulations provide that aliens detained
under § 1226(a) receive bond hearings at the outset of
detention.” Jennings, 138 S. Ct. at 847 (citing 8 C.F.R.
§§ 236.1(d)(1), 1236.1(d)(1)). Section 1226(a) does not

38a
use the word “hearing.” The Court, however, did not
suggest that the regulations’ provision of those bond
hearings was somehow at odds with the government’s
§ 1226(a) detention authority pursuant to the statutory
text.12 Instead, the Court took issue with our court’s
imposition of “procedural protections that go well be­
yond the initial bond hearing established by existing
regulations” for aliens detained pursuant to § 1226(a).
Id. (emphasis added). The Court’s rejection of our
court’s imposition of a six-month bond hearing require­
ment for aliens detained pursuant to § 1226(a) beyond
the regulations’ provision of a single bond hearing at the
outset of detention is not the same as rejecting a con­
struction of § 1226(a) to authorize or require bond hear­
ings at all. Thus, we cannot agree with one of the fun­
damental premises underlying the Government’s chal­
lenge to Diouf II based on the Court’s treatment of
§ 1226(a) in Jennings.

12 Like the Government, the dissent focuses on the absence of the
word “hearing” in § 1231(a)(6). Dissent at 65. In doing so, the dis­
sent ignores the absence of that word in § 1226(a), and Jennings’s
analysis regarding that provision. Tellingly, there is nothing in Jennings that rejects reading § 1226(a) to require a bond hearing at
all, as opposed to our erroneous reading of that provision to require
a bond hearing at a particular point in time. As we explain in Part
II.B.3, Jennings’s, rejection of our court’s bond hearing require­
ment for § 1226(a) cannot be fairly applied to Diouf II’s construc­
tion of § 1231(a)(6) in light of Zadvydas.

39a
3. Jennings’s Rejection of a Six-Month Bond
Hearing Requirement for Aliens Detained
Pursuant to § 1226(a) Does Not Undercut
DiouflFs Construction of § 1231(a)(6)
The merits of the Government’s clear irreconcilabil­
ity challenge to DiouflF s bond hearing requirement ul­
timately come down to Jennings’s rejection of constru­
ing § 1226(a) to contain a periodic bond hearing require­
ment. Reviewing the Court’s actual reasoning in Jen­
nings, including with respect to all the provisions at is­
sue there, we cannot agree that Jennings's treatment of
§ 1226(a) on this issue undercuts DiouflF
In the decision that Jennings reversed, we used the
phrase “periodic bond hearing” to refer to bond hearings
every six months. Rodriguez III, 804 F.3d at 1089. The
Court used the phrase “periodic bond hearing” to en­
compass a bond hearing held initially at six months of
detention. Jennings, 138 S. Ct. at 850-51 (“The Court of
Appeals held that aliens detained under the provisions
at issue must be given periodic bond hearings, and the
dissent agrees. . . . But the dissent draws that 6month limitation out of thin air ... [Njothing in any
of the relevant provisions imposes a 6-month time limit
on detention without the possibility of bail.”). Even if
we apply the Court’s definition, we fail to see how Jen­
nings undercuts Diouf II’s construction of § 1231(a)(6)
to require a bond hearing after the government detains
an alien pursuant to this statutory provision for six months
and whose release or removal is not imminent.
Similar to our observation in the discussion of the
Government’s constitutional avoidance argument, we
observe here that Jennings repeatedly qualified that its

40a
rejection of a “periodic bond hearing” requirement ap­
plied to the statutory provisions at issue there. Jen­
nings, 138 S. Ct. at 836 (“All parties appear to agree that
the text of [§§ 1225(b), 1226(a), 1226(c)], when read most
naturally, does not give detained aliens the right to pe­
riodic bond hearings during the course of their deten­
tion.”); id. (“[T]he Court of Appeals for the Ninth Cir­
cuit held that detained aliens have a statutory right to
periodic bond hearings under the provisions at issue.”
(emphasis added)); id. at 844 (“[A] series of textual sig­
nals distinguishes the provisions at issue in this case
from Zadvydas’s interpretation of § 1231(a)(6).” (em­
phasis added)); id. at 850-51 (“The Court of Appeals held
that aliens detained under the provisions at issue must
be given periodic bond hearings, and the dissent agrees.
. . . But the dissent draws that 6-month limitation out
of thin air. However broad its interpretation of the
words ‘detain’ and ‘custody,’ nothing in any of the rele­
vant provisions imposes a 6-month time limit on deten­
tion without the possibility of bail.” (emphasis added));
id. at 851 (“Because the Court of Appeals erroneously
concluded that periodic bond hearings are required un­
der the immigration provisions at issue here ... ”
(emphasis added)). The Court’s repeated use of this
language strongly suggests that we should not read the
Court’s rejection of a six-month bond hearing require­
ment for § 1226(a) as undercutting DiouflFs construc­
tion of § 1231(a)(6) to require a bond hearing after six
months of detention when an alien’s release or removal
is not imminent.
We find that conclusion inescapable when we look at
Jennings’s careful focus on the text of the provisions at
issue there and the ways in which they differ from
§ 1231(a)(6) and thus whether Zadvydas’s reasoning

41a
could apply to the other provisions at all. In rejecting
our constructions of §§ 1225(b)(1) and (b)(2) to contain
an implicit six-month time limit, the Court underscored
that Zadvydas applied the canon to § 1231(a)(6) based
on ambiguity in the provision’s “may be detained” lan­
guage and because the provision contained no limitation
on the permissible length of detention. Jennings, 138
S. Ct. at 843 (noting that in contrast to §§ 1225(b)(1) and
(b)(2), “Congress left the permissible length of deten­
tion under §1231(a)(6) unclear.”); Zadvydas, 533 U.S. at
697. Rather than allow the government to subject an
alien to potentially indefinite detention, as Jennings ex­
plained, Zadvydas construed § 1231(a)(6) to hold that
“an alien who has been ordered removed may not be de­
tained beyond ‘a period reasonably necessary to secure
removal’” with “six months a[s] a presumptively reason­
able period.” Jennings, 138 S. Ct. at 843 (quoting
Zadvydas, 533 U.S. at 699 and citing Zadvydas, 533 U.S.
at 701). As the Court explained, detention pursuant to
§§ 1225(b)(1) or (b)(2) presented no such issue based on
the clear text of those provisions. Id. at 843-44.
The Court’s analysis of § 1226(a) in Jennings was
sparse. But the Court’s reasoning in its discussion of
§§ 1225(b)(1) and (b)(2) applies to § 1226(a) as well.
Contrary to the Government’s singular focus on §§ 1226(a)
and 1231(a)(6)’s use of the “may be detained” language,
the provisions are materially distinct in the meaning of
this language. Unlike § 1231(a)(6), “§ 1226(a) author­
izes the Attorney General to arrest and detain an alien
‘pending a decision on whether the alien is to be removed
Id. at 847 (quoting 8 U.S.C.
from the United States.
§ 1226(a)). Thus, as a textual matter, discretionary de­
tention pursuant to § 1226(a) has an end point, unlike
discretionary detention pursuant to § 1231(a)(6) absent

42a
a limiting construction. Pursuant to the Court’s own
reasoning elsewhere in Jennings, the six-month pre­
sumptive time limitation that Zadvydas read into
§ 1231(a)(6) to address potentially indefinite detention
pursuant to that provision does not “fairly apply” to de­
tention pursuant to § 1226(a).
This material difference between §§ 1226(a) and
1231(a)(6) prevents us from concluding that Jennings's
rejection of construing § 1226(a) to require a bond hear­
ing at six months applies to § 1231(a)(6).13 Unlike with
any of the other immigration detention statutes at issue
in Jennings, Diouf II concerned the statutory provision
at issue in Zadvydas and adopted a definition of pro­
longed detention that coincides with the presumptive

13 The dissent’s analysis proceeds on the mistaken assumption
that there are no material differences between §§ 1226(a) and
1231(a)(6). Dissent at 61-62 n.2. In doing so, the dissent does
not engage with Jennings’s reasoning and analysis regarding the
statutory provisions at issue there. Moreover, the dissent com­
mits the converse of the error that led the Court to reject our ap­
plication of the canon to the other immigration detention statutes.
Dissent at 67 (contending that Jennings rejected the “scaffolding
upon which we had erected” additional procedural protections for
§ 1226(a) detainees.). Whereas as we had ignored the textual dif­
ferences amongst the immigration detention statutes to apply the
canon to those statutes in the wake of the Court’s application of the
canon to § 1231(a)(6) in Zadvydas, the dissent uncritically applies
Jennings’s limited analysis concerning § 1226(a) to Diouf IPs con­
struction of § 1231(a)(6) despite the ways in which Jennings’s rea­
soning shows that these provisions are materially distinct. Jen­
nings’s actual analysis prevents us from finding clearly irreconcil­
ability here. Cf Murray, 934 F.3d at 1106 n.6 (finding clear irrec­
oncilability when there were “no meaningful textual difference[s]”
in the statutory text at issue there and the different provisions con­
sidered by two intervening decisions).

43a
six-month time limit that Zadvydas read into that pro­
vision based on § 1231(a)(6)’s textual ambiguity. Com­
pare Zadvydas, 533 U.S. at 701 with Diouf II, 634 F.3d
at 1091-92 & n.13. Further echoing Zadvydas, Diouf
II also qualified that its construction of § 1231(a)(6) to
require a bond hearing does not apply if an alien’s re­
lease or removal is imminent. Compare Zadvydas, 533
U.S. at 701 (“[A]n alien may be held in confinement until
it has been determined that there is no significant like­
lihood of removal in the reasonably foreseeable future.”)
with Diouf II, 634 F.3d at 1092 n.13.
Although Jennings rejected our court’s reliance on
Zadvydas to construe the other immigration detention
statutes and rejected construing § 1226(a) to require a
six-month bond hearing, we cannot find in Jennings’s
reasoning a rationale that clearly undercuts Diouf II’&
six-month bond hearing requirement for aliens detained
pursuant to § 1231(a)(6). Contrary to the dissent’s
view, Jennings shows that Zadvydas’s construction of
§ 1231(a)(6) provides an “arguable statutory founda­
tion,” 138 S. Ct. at 842, for Diouf II’s six-month bond
hearing requirement that is entirely absent from the
other immigration detention provisions.14
14 The dissent posits that “we have given short shrift to” the moti­
vations underlying the Court’s decision in Zadvydas, specifically
that the decision “was largely motivated by the fact that the possi­
bility of removal of the aliens before it was truly remote because the
countries to which they could be removed were highly unlikely to
accept them at any time in the foreseeable future.” Dissent at 63
n.4. That is incorrect. As the Court has instructed, Zadvydas’s
construction of § 1231(a)(6) applies to all aliens detained pursuant to
§ 1231(a)(6) even if “the constitutional concerns that influenced our
statutory construction in Zadvydas are not present for aliens” in
other circumstances. Clark, 543 U.S. at 380. And the Court has

44a
In its reply brief, the Government makes much of
that fact that Jennings called into question Zadvydas’s
reading of § 1231(a)(6) as a “notably generous applica­
tion of the canon.” 138 S. Ct. at 843. But the Court
did not overrule Zadvydas; its statutory analysis, in­
cluding application of the canon, remain intact.15 We
therefore cannot conclude that Diouf IPs construction
of § 1231(a)(6) to require a bond hearing after six
months of detention runs afoul of Jennings. We un­
derstand that the Government strenuously disagrees
with Diouf IPs bond hearing requirement as incon­
sistent with the habeas framework that Zadvydas out­
lined and with the Government’s post-Zadvydas regula­
tions. That disagreement, however, has nothing to do
rejected the notion that statutory ambiguity disappears based on the circumstances of a given alien detained pursuant to § 1231(a)(6).
“Be that as it may, it cannot justify giving the same detention provi­
sion a different meaning when such aliens are involved. It is not at
all unusual to give a statute’s ambiguous language a limiting con­
struction called for by one of the statute’s applications, even though
other of the statute’s applications, standing alone, would not support
the same limitation.” Id. (emphasis in original).
15 In failing to account for Jennings's reasoning regarding Zad­
vydas and Diouf II’s reliance on Zadvydas’s reading of § 1231(a)(6),
the dissent characterizes the textual ambiguity in § 1231(a)(6) that
Zadvydas identified as a “narrow ambiguity.” Dissent at 63-64.
We know of no basis in our clear irreconcilability jurisprudence that
would allow us to overrule the prior decision of a three-judge panel
on the basis of a reason that appears nowhere in the intervening au­
thority’s decision. Neither Jennings, nor Zadvydas said anything
about the scope of the ambiguity in § 1231(a)(6) that Zadvydas iden­
tified. Contrary to the dissent’s view, Jennings’s questioning of
Zadvydas’s particular application of the canon to that ambiguity—
the adoption of a six-month time limitation that Jennings rejected
as a matter of statutory construction for the other immigration de­
tention statutes—says nothing about the ambiguity’s scope.

45a
with whether Jennings, by its own terms, undercuts
Diouf IFs construction of § 1231(a)(6). Accordingly,
we reject the Government’s second argument.
C.

Diouf IPs Reliance on Casas-Castrillon

As a final matter, the Government contends that
Diouf II is clearly irreconcilable with Jennings based
on the inter-related nature of our decisions in CasasCastrillon, Diouf II, and Rodriguez III. The Govern­
ment’s argument is as follows: (1) Diouf II extended
Casas-Castrillon’s construction of § 1226(a) to individu­
als subject to prolonged detention pursuant to
§ 1231(a)(6), (2) Rodriguez III also applied CasasCastrillon’s construction of § 1226(a), (3) Jennings re­
versed Rodriguez III, and, thus, by implication, (4) Jen­
nings and Diouf II are clearly irreconcilable. We re­
ject these arguments for two reasons.
First, we think that the Government misreads both
Casas-Castrillon and Jennings. As we have explained,
Jennings did not invalidate construing § 1226(a) to au­
thorize a bond hearing at all, but rather rejected con­
struing § 1226(a) to require a bond hearing at six months
in addition to the government’s existing bond hearing
regulations. More importantly here, Casas-Castrillon
did not construe § 1226(a) in the manner that the Court
rejected in Jennings. Casas-Castrillon applied the
canon of constitutional avoidance to construe § 1226(a)’s
authorization for release of an alien on bond as requiring
an individualized bond hearing when an alien is subject
to prolonged detention. 535 F.3d at 951. By the time
our court decided Rodriguez III, we had applied Diouf
IPs definition of prolonged detention as detention last­
ing longer than six months to § 1226(a), which trans­
formed Casas-Castrillon’s bond hearing requirement

46a
into a six-month bond hearing requirement. See Ro­
driguez II, 715 F.3d at 1139 (“Diouf II strongly sug­
gested that immigration detention becomes prolonged
at the six-month mark regardless of the authorizing
statute. . . . Even if Diouf II does not squarely hold
that detention always becomes prolonged at six months,
that conclusion is consistent with the reasoning of
Zadvydas, Demote, Casas[-Castrillon], and Diouf II,
and we so hold.”); see also Rodriguez III, 804 F.3d at
1078 & n.7. By its terms, Jennings invalidates that as­
pect of our case law construing § 1226(a), but does not
go further.16
Second, even if we concluded here that Jennings
overruled Casas-Castrillon, we do not see how that
could undercut Diouf II entirely. Diouf IPs, construc­
tion of § 1231(a)(6) did not rest solely on its purported
extension of Casas-Castrillon to aliens detained pursu­
ant to § 1231(a)(6). Diouf II, 634 F.3d at 1086. As we
have explained, Diouf II considered a number of argu­
ments particular to § 1231(a)(6) itself that could not have
16 The dissent contends that in rejecting the Government’s chal­
lenge to Diouf II based on its argument here, we have suggested
that “some of Casas-Castrillon survives Jennings[.]" Dissent at 68
n.14. Our response is twofold. For one, we have done nothing
more than explain why we think the Government’s challenge to
Diouf II based on Jennings is wrong. We have not decided what
specifically remains of Casas-Castrillon’s statutory holding after
Jennings. Second, we do not take issue with the dissent’s correct
understanding that Jennings invalidated procedural protections
that go beyond what the government’s regulations provide. Id.
However, we otherwise part ways with the dissent’s reading of Jennings. As we have explained, Jennings’s approval of the govern­
ment’s regulations to provide bond hearings for aliens detained pur­
suant to § 1226(a) necessarily assumes that § 1226(a) can be plausi­
bly read to authorize such hearings in the first place.

47a
applied to Casas-Castrillon’s analysis of § 1226(a). Id.
at 1086-92. More critically, as Jennings's reasoning
makes clear, Casas-Castrillon concerned a statutory
provision that is materially different from the provision at
issue in Diouf II. Thus, we conclude that Diouf II can
stand irrespective of its reliance on Casas-Castrillon.17 Be­
cause we reject this final argument, we conclude that the
Government has not shown that Diouf II is clearly irrec­
oncilable with Jennings.
D. Additional Support for Diouf II After Jennings
Apart from rejecting the Government’s arguments,
we find additional support for our conclusion that Diouf
II is not clearly irreconcilable with Jennings based on
the Third Circuit’s decision in Guerrero-Sanchez v.
Warden York County Prison, 905 F.3d 208 (3d Cir.
2018).
In Guerrero-Sanchez, the Third Circuit considered
whether the government could subject the alien peti­
tioner in that case to prolonged detention without pro­
viding an individualized bond hearing. The Third Cir­
cuit first determined that the alien—who had a rein­
stated removal order and was detained pending his pur-

17 The dissent’s reliance on Nunez-Reyes v. Holder, 646 F.3d 684,
690 (9th Cir. 2011) (en banc) misses the mark. For one, NunezReyes involved our court sitting en banc, not a three-judge panel de­
termining whether an earlier circuit precedent was clearly irrecon­
cilable with the decision of an intervening authority. We are faced
with different constraints compared with our court sitting en banc.
Second, unlike in Nunez-Reyes, there is no single “rule” on which
Diouf II relied that would warrant a conclusion that Jennings’s re­
jection of any aspect of Casas-Castrillon necessarily would invali­
date Diouf II in its entirety.

48a
suit of withholding-only relief from removal—was sub­
ject to detention pursuant to § 1231(a)(6).18 Id. at 21319. Having located the Circuits treat such detention as
authorized pursuant to § 1226(a). Guzman Chavez v.
Hott, 940 F.3d 867, 880-82 (4th Cir. 2019); Guerra v.
Shanahan, 831 F.3d 59, 64 (2d Cir. 2016).government’s
detention authority in § 1231(a)(6), the Third Circuit
considered whether the petitioner was entitled to a bond
hearing at all. Id. at 219. To resolve that issue, the
Third Circuit considered, in relevant part, Zadvydas,
Jennings, and Diouf II.
Rejecting the government’s argument there that
“Zadvydas resolves the only ambiguity in the text of
§ 1231(a)(6),” id. at 220, the Third Circuit reasoned that
Zadvydas did “not explicitly preclude courts from con­
struing § 1231(a)(6) to include additional procedural
protections during the statutorily authorized detention
period, should those protections be necessary to avoid
detention that could raise different constitutional con­
cerns,” id. at 221 (emphasis in original). Finding that
the petitioner’s 637-day detention without bond raised
serious constitutional concerns, id., the Third Circuit
declined to address whether the petitioner’s continued
confinement violated the Due Process Clause. Id. at
221, 223. Instead, the court asked whether the canon
18 We recognize that there is a circuit split on the issue of whether an
alien subject to a reinstated removal order who pursues -withholdingonly relief is subject to detention pursuant to § 1226(a) or § 1231(a)(6).
Both our court and the Third Circuit treat such detention as author­
ized pursuant to § 1231(a)(6). Guerrero-Sanchez, 905 F.3d at 21319; Padilla-Ramirez, 882 F.3d at 830-32. In contrast, the Second
and Fourth Circuits treat such detention as authorized pursuant to
§ 1226(a). Guzman Chavez v. Hott, 940 F.3d 867, 880-82 (4th Cir.
2019); Guerra v. Shanahan, 831 F.3d 59, 64 (2d Cir. 2016).

49a
of constitutional avoidance might sustain a reading of
§ 1231(a)(6) that would require the provision of a bond
hearing. Id. at 223.
The Third Circuit acknowledged Jennings’s, discus­
sion regarding the proper invocation of the canon and
Jennings’s holding that the canon could not be applied
to “other provisions in the INA” that use the phrase
“shall detain.” Id. (“We . . . invoke the canon of
constitutional avoidance so long as ‘the statute is found
to be susceptible of more than one construction.’
(quoting Jennings, 138 S. Ct. at 842)). Turning to
§ 1231(a)(6)’s text and alluding to Zadvydas, the Third
Circuit noted that the statute’s use of the phrase “may
be detained” “invites us to apply the canon of constitu­
tional avoidance[.]” Id. at 223-24. “In order to avoid
determining whether the petitioner’s detention violates
the Due Process Clause,” the Third Circuit expressly
“adopt[ed] the Ninth Circuit’s limiting construction of
§ 1231(a)(6) that ‘an alien facing prolonged detention un­
der [that provision] is entitled to a bond hearing before
an immigration judge and is entitled to be released from
detention unless the government establishes that the al­
ien poses a risk of flight or a danger to the community.
Id. at 224 (quoting Diouf II, 634 F.3d at 1092). The
Third Circuit also adopted our clear and convincing evi­
dence standard set forth in Singh. Id. at n.12 (“The
Government must meet its burden in such bond hear­
ings by clear and convincing evidence, (citing Singh,
638 F.3d at 1203-04)). The Third Circuit’s express and
reasoned adoption of Diouf II even after Jennings
shows that we do not break new ground in concluding
that Diouf II is not clearly irreconcilable with Jennings.

50a
Ignoring Guerrero-Sanchez, the Government quotes
from the Sixth Circuit’s decision in Hamama v. Homan,
912 F.3d 869 (6th Cir. 2018), without any argument
about how that case should affect our clear irreconcila­
bility analysis here. To the extent the Government in­
tended to argue that Hamama should change our anal­
ysis, we reject that argument.
In Hamama, the Sixth Circuit vacated a district
court’s class-wide preliminary injunction concerning
§§ 1226(c) and 1231(a)(6) detention claims, pursuant to
which the government was required to provide class
members with individualized bond hearings. Id. at
873-74. With respect to those claims, the Sixth Circuit
determined that 8 U.S.C. § 1252(f)(1), a statute that pro­
hibits federal courts other than the Supreme Court from
enjoining the operation of §§ 1221-31 except with re­
spect to an individual alien, barred jurisdiction over
class-wide injunctive relief there. Id. at 877. In re­
jecting the petitioners’ argument that they sought in­
junctive relief pursuant to a statutory construction of
the relevant detention statutes, the Sixth Circuit deter­
mined that “Jennings foreclosed any statutory interpre­
tation that would lead to what Petitioners want.” Id. at
879. In the Sixth Circuit’s view, “the district court
. . . created out of thin air a requirement for bond
hearings that does not exist in the statute; and adopted
new standards that the government must meet at the
bond hearings.” Id. at 879-80.
Hamama does not compel a different conclusion
about whether Diouf II is clearly irreconcilable with
Jennings for two reasons. First, despite remarking
that “the Jennings Court chastised the Ninth Circuit for
‘erroneously concluding] that periodic bond hearings

51a
are required under the immigration provisions at issue
here,” the Sixth Circuit extended Jennings to § 1231
without any analysis regarding whether Jennings's,
reasoning fairly applies to that provision. Id. at 879
(quoting Jennings, 138 S. Ct. at 850) (emphasis added).
Although we do not question Hamama’s determination
insofar as it concerns the provisions actually at issue in
Jennings, we cannot agree with the uncritical extension
of Jennings to § 1231(a)(6), particularly given our fore­
going analysis of Jennings. Second, unlike GuerreroSanchez, Hamama neither acknowledged, nor grappled
with our decision in Dioufll. Therefore, we do not find
Hamama to have any persuasive value here in deter­
mining whether we remain bound by Dioufll even after
Jennings.
The dissent takes issue with our reliance on GuerreroSanchez. Dissent at 63-64 & n.5. Yet, in so doing, the
dissent errs by mistaking the clear irreconcilability in­
quiry that confronts us with an invitation to opine on
how we would decide the statutory construction ques­
tion that Dioufll resolved.19 To be clear, our reliance
on Guerrero-Sanchez concerns whether we may apply
19 The dissent asserts that we and Guerrero-Sanchez “mistakenly
perceive[] the narrow ambiguity in § 1231(a)(6) identified by Zadvydas" to justify Dioufll’s construction of § 1231(a)(6). Dissent 6364. We have already explained that the dissent’s characterization of
the ambiguity that Zadvydas identified is not justified by Jennings or
Zadvydas. We otherwise note that the dissent’s view contravenes
how at least one other circuit understood Zadvydas prior to Jennings.
See Hemandez-Carrerav. Carlson, 547 F.3d 1237,1249 (10th Cir. 2008)
(“In Zadvydas, the Supreme Court did not purport to ‘resolve’ the
statutory ambiguity in § 1231(a)(6) once and for all. ... In no way,
... did the Court signal that its interpretation was the only reason­
able construction of § 1231(a)(6).”).

52a
Dioufll even after Jennings. In determining whether
a prior circuit precedent is clearly irreconcilable with an
intervening authority’s decision, we have looked to how
other circuits have addressed the issue in light of the in­
tervening decision. See Murray, 934 F.3d at 1107 (ob­
serving that the court’s clear irreconcilability conclusion
“comport[ed] with the decisions of all of our sister cir­
cuits that have considered this question after” the
Supreme Court’s Gross and Nassar decisions); In re
Zappos.com, Inc., 888 F.3d 1020,1026 n.6 (9th Cir. 2018)
(noting that the panel’s conclusion that earlier circuit
precedent was not clearly irreconcilable with an inter­
vening Supreme Court decision was “consistent” with
sister circuit decisions to have considered the issue).
Guerrero-Sanchez is the only reasoned decision of an­
other circuit addressing the relationship between Diouf
IPs construction of § 1231(a)(6) and Jennings, and it de­
termined that Jennings does not undercut Diouf IPs
construction. We therefore respectfully disagree with
the dissent.
E.

The Outcome of the Clearly Irreconcilable Analy­
sis

We have carefully considered Jennings, Diouf II,
and the parties’ arguments as well as the dissent’s views.
As we have explained, there is some tension between
Diouf II and Jennings. But, as members of a threejudge panel, we are not free to overrule the prior deci­
sion of a three-judge panel merely because we sense
some tension with that decision and the decision of an
intervening higher authority even if we might have
reached a different outcome than the prior decision in
light of that intervening authority. Consumer Def,
926 F.3d at 1213 (“[Mjere tension between the cases

53a
does not meet the higher standard of irreconcilable con­
flict.”)- Taken together, Jennings's limited focus on
the provisions at issue in that case and Jennings's anal­
ysis and reasoning concerning those provisions compel
us to conclude that we remain bound by Diouf II's con­
struction of § 1231(a)(6). Neither the Government’s ar­
guments, nor the dissent have persuaded us otherwise.
Accordingly, we conclude that the district court pro­
perly determined that Plaintiffs are likely to succeed on
the merits of their § 1231(a)(6) statutory claims.
III. The Preliminary Injunction Is Not Otherwise Con­
trary to Law
Although we have concluded that Plaintiffs are likely
to succeed on the merits of their statutory claims, the
Government contends that we must vacate the prelimi­
nary injunction because of two other asserted legal er­
rors. We disagree because we find no such errors.
First, the Government argues that Zadvydas already
applied the canon to § 1231(a)(6) to prohibit indefinite
definition, pursuant to which Zadvydas specified a par­
ticular means by which an alien can challenge detention
in a habeas petition. The Government contends that the
district court could not re-apply the canon to § 1231(a)(6).
The Government, however, cannot properly charge the
district court with erroneously “re-applying” the canon
of constitutional avoidance to § 1231(a)(6). Indeed, the
Government acknowledges that the district court
merely followed Diouf IPs construction of § 1231(a)(6).
The Government’s true complaint is with Diouf II it­
self. As in Diouf II, the Government argues here that
§ 1231(a)(6)’s text cannot be interpreted to require a
bond hearing for aliens detained under the provision.

54a
Diouf II, 634 F.3d at 1089. And, as in Diouf II, the
Government argues that its post-Zadvydas regulations
adequately address any constitutional concerns that
may arise from an alien’s continued detention pursuant
to § 1231(a)(6). Diouf II, 634 F.3d at 1089-92. The
Government’s attempt to relitigate issues that Diouf II
decided necessarily fails because we have concluded that
Diouf II remains controlling precedent. Although the
Government may disagree with Diouf IPs wisdom, that
disagreement does not give us license to disregard

Diouf II.
Second, the Government argues that Clark v. Mar­
tinez, 543 U.S. 371 (2005), stands for the proposition that
courts can apply only Zadvydas’s construction of
§ 1231(a)(6) in all cases, and nothing more. Based on
this reading of Clark, the Government contends that the
district court’s preliminary injunction erroneously de­
parts from the framework Zadvydas established for fed­
eral habeas courts.
Contrary to the Government’s argument, Clark did
not announce a new rule of the canon of constitutional
avoidance, nor does Clark stand for the proposition that
Zadvydas’s construction of § 1231(a)(6) is the single per­
missible application of the canon to that provision. In­
stead, in Clark, the Court held that Zadvydas’s construc­
tion of § 1231(a)(6) “must” apply to all three categories
because “[t]he operative language of § 1231(a)(6) . . .
applies without differentiation to all three categories of
aliens that are its subject.” Clark, 543 U.S. at 378.
Clark thus requires applying § 1231(a)(6), including as ju­
dicially construed, in the same manner for all categories

55a
of aliens specified in the statute “without differentiation.”
Id. at 378-79.20
Expressly acknowledging Clark, Diouf II requires
the Government to provide a bond hearing to any alien
detained under § 1231(a)(6) whose detention becomes
prolonged and whose release or removal is not immi­
nent, Diouf II, 634 F.3d at 1088 (citing Clark, 543 U.S.
at 380-81); id. at 1084. Consistent with Clark and Diouf
II, the preliminary injunction applies to the entire cer­
tified class of aliens that our court treats as detained
pursuant to § 1231(a)(6).21 See Padilla-Ramirez, 882
F.3d at 830-32. Thus, we reject the Government’s re­
maining challenges to the preliminary injunction.
CONCLUSION
We conclude that the district court correctly deter­
mined that Plaintiffs are likely to succeed on their
§ 1231(a)(6) statutory claims. Thus, we affirm the dis­
trict court’s grant of a preliminary injunction.
AFFIRMED.

20 In Clark, the Court rejected the dissent’s contrary view that the
government’s § 1231(a)(6) detention authority applies differently across
categories of aliens as a “novel interpretative approach” that “would
render every statute a chameleon, its meaning subject to change de­
pending on the presence or absence of constitutional concerns in each
individual case.” 543 U.S. at 382. This aspect of Clark does not sup­
port the Government’s position.
21 The certified class includes aliens with administratively final re­
moval orders under 8 U.S.C. § 1228(b). The Government does not ar­
gue that such aliens are not subject to detention pursuant to § 1231(a),
and thus has waived any such argument in this appeal. We therefore
assume that such aliens may be detained pursuant to § 1231(a)(6).

56a
Fernandez, Circuit Judge, dissenting:
I agree with the majority that Plaintiffs’ likelihood of
success on their statutory claim turns on whether Diouf
v. Napolitano {Diouf II), 634 F.3d 1081, 1085-86 (9th
Cir. 2011), remains binding law in our circuit. I also
agree that we must follow Diouf II unless a subsequent
Supreme Court case has “undercut [its] theory or rea­
soning ... in such a way that the cases are clearly
irreconcilable.” Miller v. Gammie, 335 F.3d 889, 900
(9th Cir. 2003) (en banc). And I agree that ‘“is a high
standard’” to meet. Close v. Sotheby’s, Inc., 894 F.3d
1061, 1073 (9th Cir. 2018). That standard is met here
because Diouf IPs reasoning is clearly irreconcilable
, 138 S. Ct.
with Jennings v. Rodriguez,_U.S.
830, 851, 200 L. Ed. 2d 122 (2018). Therefore, I re­
spectfully dissent.
As an intermediate appellate court, one goal of our
jurisprudence is “to preserve the consistency of circuit
law.” Miller, 335 F.3d at 900. But this laudable ob­
jective “must not be pursued at the expense of creating
an inconsistency between our circuit decisions and the
reasoning” of the Supreme Court. Id. Deciding wheth­
er Jennings and Diouf II are irreconcilable is not mere­
ly a matter of deciding whether their ultimate holdings
might coexist in the abstract. See United States v.
Lindsey, 634 F.3d 541, 550 (9th Cir. 2011); see also OrtegaMendez v. Gonzales, 450 F.3d 1010,1019 (9th Cir. 2006).
Instead, the question is whether the Supreme Court has
so “undercut the theory or reasoning” of Diouf II “that
the cases are [now] clearly irreconcilable.” Miller, 335
F.3d at 900; see also Ne. Ohio Coal, for the Homeless v.
Husted, 831 F.3d 686, 720-21 (6th Cir. 2016). That in-

57a
quiry “requires us to look at more than [the Court’s] sur­
face conclusions,” and to examine whether the Court’s
“‘approach
. . .
[is] fundamentally inconsistent
with’ ” our earlier reasoning. Rodriguez v. AT &T Mo­
bility Servs. LLC, 728 F.3d 975, 979 (9th Cir. 2013).
That includes the Court’s “‘mode of analysis.’” Miller,
335 F.3d at 900. If “the conclusion reached in our cir­
cuit precedent [can] no longer [be] ‘supported for the
reasons stated’ in that decision,” the circuit precedent
must yield. Rodriguez, 728 F.3d at 979; see also
Ortega-Mendez, 450 F.3d at 1020. We have frequently
applied that principle and deviated from our prior hold­
ings. See, e.g., Murray v. Mayo Clinic, 934 F.3d 1101,
1105 (9th Cir. 2019), 'petition for cert, filed, 88 U.S.L.W.
3265 (U.S. Feb. 3, 2020) (No. 19-995); Rodriguez, 728
F.3d at 981; United States ex rel. Air Control Techs.,
Inc. v. Pre Con Indus., Inc., 720 F.3d 1174, 1177-78 (9th
Cir. 2013); Lindsey, 634 F.3d at 549-50; Ortega-Mendez,
450 F.3d at 1018-20; Galbraith v. County of Santa Clara,
307 F.3d 1119, 1123-25 (9th Cir. 2002).
A close examination of Dioufll and Jennings reveals
that the reasoning supporting Dioufll’s conclusion that
8 U.S.C. § 1231(a)(6) requires aliens be afforded individ­
ualized bond hearings after six months of detention is no
longer viable. In Diouf II, we held “that an individual
facing prolonged immigration detention under 8 U.S.C.
§ 1231(a)(6) is entitled to release on bond unless the gov­
ernment establishes that he is a flight risk or a danger
to the community.” Dioufll, 634 F.3d at 1082. We ex­
tended procedural protections that we had previously
granted to aliens facing prolonged detention under

58a
8 U.S.C. § 1226(a)1 to those detained under § 1231(a)(6), be­
cause otherwise their “prolonged detention . . . would
raise ‘serious constitutional concerns.’” Diouf II, 634
F.3d at 1086. We thus “applied] the canon of constitu­
tional avoidance and construe[d] § 1231(a)(6) as requiring
an individualized bond hearing, before an immigration
judge, for aliens facing prolonged detention.” Id. Jen­
nings is clearly irreconcilable with Diouf IFs reasoning,
both with regard to our application of the canon of consti­
tutional avoidance and our reliance on Casas-Castrillon.2
1 Casas-Castrillon v. Dep’t of Homeland Sec., 535 F.3d 942, 949-51
(9th Cir. 2008).
2 The majority mentions several times that Jennings,_U.S. at__ ,
138 S. Ct. at 836, 842, 843-44, 850-51, expressly limited its holding to
the statutory provisions that were before it (i.e., 8 U.S.C. §§ 1225(b),
1226(a), (c)). But that does “not deprive it of all persuasive force.”
Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 351, 133 S. Ct.
2517,2527,186 L. Ed. 2d 503 (2013). Thus, to the extent that the ma­
jority relies upon that limitation to justify its reconciling of Jennings,
_U.S. at__ , 138 S. Ct. at 851, and Diouf II, 634 F.3d at 1086,1 disa­
gree. As we have said, “the issues decided by the higher court need
not be identical in order to be controlling.” Miller, 335 F.3d at 900;
see also Gahagan v. USCIS, 911 F.3d 298, 302 (5th Cir. 2018) (“That
two decisions involve different statutes is not dispositive.”). For ex­
ample, in Murray, 934 F.3d at 1105-07, we determined that the rea­
soning of one of our earlier circuit cases, Head v. Glacier Nw. Inc., 413
F.3d 1053,1063-65 (9th Cir. 2005), was clearly irreconcilable with sub­
sequent Supreme Court cases. Neither of those Supreme Court cases
addressed the particular statutory provision that was before us in ei­
ther Murray or Head. Murray, 934 F.3d at 1105-07; see also Nassar,
570 U.S. at 351-53, 133 S. Ct. at 2528; Gross v. FBL Fin. Servs., Inc.,
557 U.S. 167,173-75,129 S. Ct. 2343, 2348-49,174 L. Ed. 2d 119 (2009).
Nevertheless, we adopted the Supreme Court’s reasoning because
there was “no meaningful textual difference” between the statutes
in the circumstances at issue there. Murray, 934 F.3d at 1106 n.6;
see also id. at 1106. The same is true here. Thus, that Jennings

59a
Jennings establishes that we misused the canon of
constitutional avoidance in Diouf II. In Jennings, the
Supreme Court explained that the canon should be em­
ployed only ‘“after the application of ordinary textual
analysis,’” when “‘the statute is found to be susceptible
Jennings,_U.S. at
of more than one construction.
_, 138 S. Ct. at 842; see also Clark v. Martinez, 543 U.S.
371, 385, 125 S. Ct. 716, 726, 160 L. Ed. 2d 734 (2005).
Diouf II engaged in no textual analysis of § 1231(a)(6):
we did not identify a textual ambiguity in the statute re­
garding a bond hearing requirement, nor did we identify
any plausible basis in the statutory text for such a hear­
ing. See Diouf II, 634 F.3d at 1089; see also Clark, 543
U.S. at 379, 381, 125 S. Ct. at 723, 724. Diouf IDs ap­
plication of the constitutional avoidance canon without
first analyzing the text of the statute or identifying a rel­
evant ambiguity is clearly irreconcilable with Jennings.
Instead of properly applying the canon of constitutional
avoidance to § 1231(a)(6), Diouf II simply grafted CasasCastrillon’s reasoning as to § 1226(a) detainees onto
§ 1231(a)(6) detainees. Diouf II, 634 F.3d at 1089.
We did not explain why that was appropriate, notwith­
standing our recognition that the text of § 1226(a) ex­
pressly mentions bond, while the text of § 1231(a)(6)
does not. See id.; cf. Nassar, 570 U.S. at 352,133 S. Ct.
at 2528 (applying the same analysis when there is no
“meaningful textual difference” between the two stat­
utes at issue). That approach in Diouf II is irreconcil­
able with Jennings.

and Diouf II analyzed different statutes is not dispositive of their
irreconcilability.

60a
The majority seeks support in the Third Circuit’s de­
cision that Diouf IFs reasoning remains sound because
“[t]he Supreme Court has already determined [in
Zadvydas3] that the text of § 1231(a)(6) is ambiguous as
to the due process protections that it provides,” and that
§ 1231(a)(6) could therefore be construed to require
bond hearings. Guerrero-Sanchez v. Warden York
Cty. Prison, 905 F.3d 208, 223-24 (3d Cir. 2018). How­
ever, like Diouf II and the majority, the Third Circuit
mistakenly perceived the narrow ambiguity in
§ 1231(a)(6) identified by Zadvydas, in the particular
context presented there, as essentially equivalent to a
general determination that § 1231(a)(6) is “ambiguous
as to ... due process” overall. Guerrero-Sanchez,
905 F.3d at 223.4 Our adopting the Third Circuit’s ap­
proach would effectively allow courts to decide constitu­
tional issues sub silentio, without ever having to “find[]
a statute unconstitutional as applied.” Clark, 543 U.S.
at 384, 125 S. Ct. at 726. Instead, we should follow the
procedure described by Jennings: a court must iden­
tify ‘“competing plausible interpretations of [the] stat­
utory text,”’ in the specific context of the matter at
3 Zadvydas v. Davis, 533 U.S. 678, 697, 121 S. Ct. 2491, 2502, 150
L. Ed. 2d 653 (2001) (“the word ‘may’ is ambiguous”).
4 By the way, it seems to me that the Third Circuit, and we, have
given short shrift to the fact that the Court’s opinion in Zadvydas
was largely motivated by the fact that the possibility of removal of
the aliens before it was truly remote because the countries to which
they could be removed were highly unlikely to accept them at any
time in the foreseeable future. Thus, detention was indefinite and
potentially permanent. See Zadvydas, 533 U.S. at 684-86, 690-91,
695-96,121 S. Ct. at 2496-97, 2498-99, 2502. Even so, the Court has
dubbed the decision in Zadvydas “notably generous.” Jennings,_
U.S. at
138 S. Ct. at 843; see also id. at _, 138 S. Ct. at 843-44
(the Court did not expand that form of generosity).

61a
hand, before applying the canon of constitutional avoid­
ance. See Jennings,
U.S. at
138 S. Ct. at 843;
Clark, 543 U.S. at 379, 125 S. Ct. at 723. Here, that
would require us to identify an ambiguity in the text of
§ 1231(a)(6) that produces a plausible reading of the stat­
ute as requiring bond hearings. None is apparent to me.5
The majority decides that Dioufll conformed with Jennings in interpreting the text of § 1231(a)(6) because it
noted that prior circuit precedent6 and agency regula­
tions7 had recognized the requirement of a bond as a rea­
sonable condition8 of supervised release pursuant to the
statute. See Diouf II, 634 F.3d at 1089. But I fail
to see how that reasoning or line of authority supplies
the necessary plausible interpretation of the text of
§ 1231(a)(6) as requiring a bond hearing. Those author­
ities arose out of Congress’s explicit command to the At­
torney General to prescribe regulations governing the
terms of an alien’s supervised release after his initial 90day detention. 8 U.S.C. § 1231(a)(13). The Department

6 For example, the Court’s determination in Zadvydas, 533 U.S. at
697,121 S. Ct. at 2502, that § 1231(a)(6) was ambiguous as to whether
the agency had discretion to indefinitely detain aliens does not sup­
port the independent conclusion that § 1231(a)(6) is also ambiguous
as to whether the agency must afford those aliens individualized
bond hearings before an Immigration Judge when they have been
detained for six months. See Jennings,_U.S. at
138 S. Ct. at
847-48 (explaining that logic in the context of § 1226(a)); cf. Diouf II,
634 F.3d at 1086, 1091-92, 1092 n.13.
6 Diouf v. Mukasey {Diouf I), 542 F.3d 1222, 1234 (9th Cir. 2008);
see also Doan v. INS, 311 F.3d 1160, 1162 (9th Cir. 2002).
7 8 C.F.R. § 241.5(a)-(b).
8 8 U.S.C. § 1231(a)(3).

62a
of Homeland Security9 dutifully promulgated pertinent
regulations, and one of the release conditions it adopted
was that an alien may be required to post a bond in order
to ensure his compliance with the terms of his supervi­
sion order. 8 C.F.R. § 241.5(b); see also Doan, 311 F.3d
at 1162. But the agency’s proper exercise of its discre­
tion10 to impose bond as a condition of release pursuant
to § 1231(a)(3), combined with our decision that
§ 1231(a)(6) allows the agency to do so,11 does not pro­
duce the conclusion that § 1231(a)(6) plausibly requires,
as a matter of statutory construction, the bond hearings
sought by the Plaintiffs. See Morales-Izquierdo, 486
F.3d at 493.12 As I have previously noted, neither a bond
nor a hearing is mentioned in the text of § 1231(a)(6).13
Because our court has yet to identify a plausible inter­
pretation of the text of § 1231(a)(6) that would require a
9 See City & County of San Francisco v. USCIS, 944 F.3d 773, 781
n.2 (9th Cir. 2019).
10 See Morales-Izquierdo v. Gonzales, 486 F.3d 484, 492 (9th Cir.
2007) (en banc).
11 Doan, 311 F.3d at 1161-62.
12 And because Diouf I, 542 F.3d at 1234, and Doan, 311 F.3d at
1162, simply recognized the agency’s authority to impose bond as a
condition of release, I see no ineluctable reason that those cases
would have to be overturned if we overturned DioufII, 634 F.3d at
1086,1089.
13 I do not mean to suggest that the statute forbids the agency
from promulgating regulations that would allow bond hearings be­
fore an Immigration Judge. See Encino Motorcars, LLC v. Na_, 136 S. Ct. 2117, 2124-25, 195 L. Ed. 2d 382
varro,
U.S.
(2016); see also Morales-Izquierdo, 486 F.3d at 493. But that does
not make it any less problematic for a court to “simply read a bond
hearing requirement into the statute.” See Rodriguez v. Robbins,
715 F.3d 1127, 1143 (9th Cir. 2013) (characterizing the Diouf line of
cases).

63a
bond hearing, I disagree with the majority’s conclusion
that Diouf II applied the canon of constitutional avoid­
ance to choose between competing plausible interpreta­
tions of § 1231(a)(6), as required by Jennings. Rather,
its reasoning is irreconcilable with Jennings.
Diouf IPs, holding was also premised on its implicit as­
sumption that the language of § 1226(a) and § 1231(a)(6)
was sufficiently similar that Casas-Castrillon’s analysis
of § 1226(a) could be grafted onto § 1231(a)(6). Diouf
II, 634 F.3d at 1086, 1089; see also, e.g., Murray, 934
F.3d at 1106 & n.6. Diouf IPs, reasoning in this regard
has likewise been fatally undermined because that as­
pect of Casas-Castrillon is itself clearly irreconcilable
with Jennings.
In Casas-Castrillon, we held “that the government
may not detain a legal permanent resident . . . for a
prolonged period [pursuant to 8 U.S.C. § 1226(a)] with­
out providing him a neutral forum in which to contest
the necessity of his continued detention.”
CasasCastrillon, 535 F.3d at 949. Our holding was premised
on our conclusion “that prolonged detention without ad­
equate procedural protections would raise serious con­
stitutional concerns.” Id. at 950. But we did not de­
cide the constitutional issue in Casas-Castrillon. Id.
Rather, we pointed out that § 1226(a) “provides . . .
authority for the Attorney General to conduct a bond
hearing and release the alien on bond or detain him if
necessary to secure his presence at removal.” Id. at
951; see also 8 U.S.C. § 1226(a)(2) (an alien “may [be]
release[d]” on bond or parole). We then held that
“[b]ecause the prolonged detention of an alien without
an individualized determination of his dangerousness or
flight risk would be ‘constitutionally doubtful,’ . . .

64a
§ 1226(a) must be construed as requiring the Attorney
General to provide the alien with such a hearing.”
Casas-Castrillon, 535 F.3d at 951. But we identified no
ambiguity in § 1226(a) regarding whether a bond hear­
ing was required. Id. at 950-51. Instead, we essen­
tially rewrote the statute to make it so. Id. That is
precisely the procedure rejected by the Supreme Court
, 138 S. Ct. at
in Jennings. See Jennings,_U.S. at
843; see also Clark, 543 U.S. at 378, 125 S. Ct. at 722-23;
id. at 381, 125 S. Ct. at 724.
In Jennings, the Supreme Court rejected as implau­
sible our reading of § 1226(a) “to limit the permissible
length of an alien’s detention without a bond hearing.”
Jennings, _ U.S. at __) 138 S. Ct. at 842. The Supreme Court held “that there is no justification for any
of the procedural requirements that the Court of Ap­
peals layered onto § 1226(a) without any arguable stat­
utory foundation.” Id. Nonetheless, the Supreme
Court acknowledged that aliens detained pursuant to
§ 1226(a) were entitled, by dint of agency regulations, to
“bond hearings at the outset of detention.” Id. at_,
138 S. Ct. at 847. The Supreme Court thus struck
down the additional procedural devices we had created,
which went “well beyond the initial bond hearing estab­
lished by existing regulations—namely, periodic bond
hearings every six months in which the Attorney Gen­
eral must prove by clear and convincing evidence that
the alien’s continued detention is necessary.” Id. at_,
138 S. Ct. at 847-48. The scaffolding upon which we
had erected those excess procedures for § 1226(a) de­
tainees was Casas-Castrillon and its progeny. See Rodri­
guez v. Robbins, 804 F.3d 1060, 1084-85, 1086-89 (9th
Cir. 2015) (“The district court’s decision regarding the

65a
§ 1226(a) subclass was squarely controlled by our prec­
edents,” most prominently, Casas-Castrillon), rev’d,
, 138 S. Ct. at 836. Because JenJennings,_U.S. at
nings struck down all procedural protections for § 1226(a)
detainees beyond those provided by regulation, Jen­
nings dispelled the excess procedures conjured up by
Casas-Castrillon, 535 F.3d at 950-51.14 Thus, DiouflFs
reasoning that § 1231(a)(6) detainees were entitled to
individualized bond hearings simply because CasasCastrillon had conjured those for § 1226(a) detainees is
clearly irreconcilable with Jennings.
Diouf II contains no other reasoning supporting its
conclusion that an individualized bond hearing is re­
quired for § 1231(a)(6) detainees. See Diouf II, 634
F.3d at 1086, 1089. In light of the analysis above, the
majority contradicts Jennings by relying on Diouf II.
See Close, 894 F.3d at 1073; cf. Nunez-Reyes v. Holder,
646 F.3d 684, 690 (9th Cir. 2011) (en banc) (overruling
one case likewise overrules the holdings of those cases
that followed its rule). In other words, there is no ba­
sis for clinging to a mode of analysis that the Court has
14 The majority suggests that some of Casas-Castrillon survives
Jennings: that is, the majority reads Jennings to invalidate only
the requirement that a hearing be conducted after six months of de­
tention, which it sees as narrower than Casas-Castrillon’s holding,
which required an individualized bond hearing after an alien’s “pro­
longed detention.” See Casas-Castrillon, 535 F.3d at 951. But I
take the Supreme Court at its word, and it told us in Jennings that
we had erred in providing § 1226(a) detainees with “procedural pro­
tections that go ... beyond [those] . . . established by exist­
, 138 S. Ct. at 847. Being regulations.” Jennings,_U.S. at
cause the hearings prescribed in Casas-Castrillon are procedural
protections that are not “established by existing regulations,” I dis­
agree with the majority that Casas-Castrillon’s hearing require­
ment survived Jennings.

66a
plainly held is plainly wrong. Rather, we should vacate
the grant of the preliminary injunction.
Thus, I respectfully dissent.

67a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
Case No. 18-cv-01869-JSC
Esteban Aleman Gonzalez, et al.,
PLAINTIFFS
V.

Jefferson B. Sessions, et al., defendants
Filed:

June 5, 2018

ORDER RE PLAINTIFFS’ MOTIONS FOR CLASS
CERTIFICATION AND PRELIMINARY INJUNCTION
Re:

Dkt. Nos. 21, 22

In Dioufv. Napolitano, 634 F.3d 1081, 1082 (9th Cir.
2011) (“Diouf II”), the Ninth Circuit held that an indi­
vidual facing prolonged detention under 8 U.S.C. section
1231(a)(6) “is entitled to release on bond unless the gov­
ernment establishes that he is a flight risk or a danger
to the community.” The government has detained plain­
tiffs Esteban Aleman Gonzalez and Jose Eduardo Gutier­
rez Sanchez pursuant to 8 U.S.C. § 1231(a)(6) for more
than six months without an individualized bond hearing.
Accordingly, they filed this suit on behalf of themselves
and a putative class seeking declaratory and injunctive
relief. Now pending before the Court are Plaintiffs’
motions for class certification and preliminary injunc-

68a
tion. (Dkt. Nos. 21 and 22.)1 Plaintiffs seek certifica­
tion of a class of essentially all present and future sec­
tion 1231(a)(6) detainees in the Ninth Circuit and a pre­
liminary injunction enjoining the government from de­
taining plaintiffs and the class for more than 180 days
without providing them with a bond hearing before an
immigration judge at which the government has the bur­
den of justifying detention. The dispositive issue is
whether Diouf II is clearly irreconcilable with the
United States Supreme Court’s recent decision in Jen­
nings. As the Court concludes that it is not, it certifies
the class and enjoins the government from failing to pro­
vide a bond hearing to 1231(a)(6) detainees after 180
days in detention.
IMMIGRATION FRAMEWORK
The Immigration and Nationality Act (“INA”) au­
thorizes the detention of noncitizens awaiting removal
from the United States. Different sections of the INA
govern different phases of detention. It authorizes
“the Government to detain certain aliens seeking admis­
sion into the country under §§ 1225(b)(1) and (b)(2)” and
“aliens already in the country pending the outcome of
removal proceedings under §§ 1226(a) and (c).” Jen­
nings v. Rodriguez, 138 S. Ct. 830, 838 (2018).
If the proceedings result in an order of removal, the
Attorney General is required to remove the noncitizen
from the United States within a period of 90 days, known
as the “removal period.” See 8 U.S.C. § 1231(a)(1)(A).

1 Record citations are to material in the Electronic Case File
(“ECF”); pinpoint citations are to the ECF-generated page num­
bers at the top of the documents.

69a
Detention during the 90 day removal period is manda­
tory. See id. § 1231(a)(2). If the noncitizen is not re­
moved during the removal period, continued detention
is authorized beyond the removal period in the discre­
tion of the Attorney General. Id. § 1231(a)(6). Sec­
tion 1231(a)(6) encompasses noncitizens “whose collat­
eral challenge to his removal order (a motion to reopen)
is pending in the court of appeals, as well as to aliens
who have exhausted all direct and collateral review of
their removal orders but who, for one reason or another,
have not yet been removed from the United States.”
Diouf II, 634 F.3d at 1085.
“An alien who expresses a fear of returning to the
country designated in the reinstated order of removal
. . . must be immediately referred to an asylum of­
ficer for an interview to determine whether the alien has
a reasonable fear of persecution or torture.” Andrade
v. Sessions, 828 F.3d 826, 832 (9th Cir. 2016) (quoting
8 C.F.R. § 241.8(e)). “If the officer decides that the al­
ien does have a reasonable fear of persecution or tor­
ture, the case is referred to an immigration judge (“I J”)
for full consideration of the request for withholding of
removal only.” Ayala v. Sessions, 855 F.3d 1012, 1015
(9th Cir. 2017); 8 C.F.R. § 208.31(e)). “If, however, the
asylum officer decides that the alien has not established
a reasonable fear of persecution or torture, then the al­
ien is entitled to appeal that determination to an IJ.”
Id. at 1015-1016; 8 C.F.R. § 208.31(g). “On appeal, if
the IJ affirms the officer’s negative fear determination,
the case is returned to the Service for removal, and the
alien is not entitled to appeal further to the BIA.” Id.
at 1016. The noncitzen may, however, petition the Ninth
Circuit for review of a negative reasonable fear determi­
nation. Id.

70a
FACTUAL BACKGROUND
A.

Esteban Aleman Gonzalez

Plaintiff Esteban Aleman Gonzalez is a citizen of
Mexico who applied for admission to the United States
in April 2000. (Dkt. No. 27-1.) During this process
Mr. Gonzalez presented an entry document that be­
longed to another person. (Id.) An immigration of­
ficer found that Mr. Gonzalez was inadmissible under
8 U.S.C. § 1182(a)(6)(C)(i) because he sought to procure
admission “by fraud or by willfully misrepresenting a
material fact.” (Id.) Mr. Gonzalez was removed un­
der an expedited removal order. (Id.) Sometime
thereafter, Mr. Gonzalez unlawfully reentered the
United States. (Dkt. No. 27-2.) In August 2017, im­
migration officers arrested him and determined that he
was “removable as an alien who ha[d] illegally reentered
the United States after having been previously re­
moved.” (Id.) (citing 8 U.S.C. § 1231(a)(5)). Mr. Gon­
zalez did not contest the finding that he was removable
and his removal order was reinstated on August 18,
2017. (Id.)
While in custody Mr. Gonzalez expressed a fear that
he would persecuted or tortured if he was removed him
to Mexico. (Dkt. No. 27-3 11 6). An asylum officer in­
terviewed Mr. Gonzalez, determined that he “has a rea­
sonable fear persecution or torture,” and then referred
him to an immigration judge for “withholding-only” pro­
ceedings. (Id.) Thereafter, Mr. Gonzalez moved for a
bond hearing. (Dkt. No. 27-4). An immigration judge
denied the motion for lack of jurisdiction and scheduled
a July 9, 2018 hearing on the merits of Mr. Gonzalez’s
withholding-of-removal claim. (Dkt. Nos. 27-4, 27-5.)
On February 26, 2018, an ICE officer reviewed Mr.

71a
Gonzalez’s custody status and determined that he will
remain in ICE custody “[pjending a ruling on [his
withholding-of-removal] claim” or until he demonstrates
that his “removal is unlikely.” (Dkt. No. 27-6.)
B.

Jose Eduardo Gutierrez Sanchez

Plaintiff Jose Eduardo Gutierrez Sanchez is a citizen
of Mexico who unlawfully entered the United States in
May 2009. (Dkt. No. 27-7.) Shortly thereafter, Mr.
Sanchez was arrested and charged as inadmissible un­
der 8 U.S.C. § 1182(a)(7)(A)(i)(I). (Id.) An expedited
removal order issued and Mr. Sanchez was removed.
(Id.) At a later date, Mr. Sanchez unlawfully reentered
the United States. (Dkt. No. 27-8.) On September 26,
2017, Mr. Sanchez was arrested and immigration offi­
cials determined that he was “removable as an alien who
ha[d] illegally reentered the United States after having
been previously removed” under 8 U.S.C. § 1231(a)(5).
(Id.) Mr. Sanchez did not contest he was removable
and his May 2009 removal order was reinstated. (Id.)
While in custody, Mr. Sanchez also expressed a fear
that he would persecuted or tortured if removed to Mex­
ico. (Dkt. No. 27-9 11 6). An asylum officer inter­
viewed him, determined that he reasonably feared per­
secution or torture, and referred him to an immigration
judge for “withholding-only” proceedings. (Id.] see
8 C.F.R. §§ 208.31(e), 241.8(e).) In withholding-only
proceedings, Mr. Sanchez moved for a bond hearing which
was denied for lack of jurisdiction. (Dkt. No. 27-10.)
The IJ has scheduled a June 18, 2018 hearing on the
merits of Mr. Sanchez’s withholding-of-removal claim.
(Dkt. No. 27-11.) On December 19, 2017, an ICE of­
ficer reviewed Mr. Sanchez’s custody status. (Dkt. No.

72a
31-1.) The officer relied on Mr. Sanchez’s criminal his­
tory, including “arrests for possession of marijuana, ob­
struct/resist public officer, battery spouse, robbery: sec­
ond degree,” and Mr. Sanchez’s “multiple illegal en­
tries” to conclude that Mr. Sanchez “would be a danger
and a flight risk if released.” (Id.)
THE CLASS CERTIFICATION MOTION
Plaintiffs ask the Court to certify as a class “all individ­
uals who are detained pursuant to 8 U.S.C. § 1231(a)(6) in
the Ninth Circuit by, or pursuant to the authority of, the
U.S. Immigration and Customs Enforcement (“ICE”),
and who have reached or will reach six months in deten­
tion, and have been or will be denied a prolonged deten­
tion bond hearing before an Immigration Judge (TJ’).”2
I.

Legal Standard

“Federal Rule of Civil Procedure 23 governs the
maintenance of class actions in federal court.” Briseno
v. ConAgra Foods, Inc., 844 F.3d 1121, 1124 (9th Cir.
2017). To succeed on their motion for class certifica­
tion, Plaintiffs must satisfy the threshold requirements
of Federal Rule of Civil Procedure 23(a) as well as the
requirements for certification under one of the subsec­
tions of Rule 23(b). Mazza v. Am. Honda Motor Co.,
666 F.3d 581, 588 (9th Cir. 2012). Rule 23(a) provides
that a case is appropriate for certification as a class ac­
tion if:

2 Both the Central District of California and the Western District
of Washington have certified classes of detainees under section
1231(a)(6). Plaintiffs’ proposed class definition excludes those indi­
viduals that fall within those certified classes. (Dkt. No. 21 at 10
n.3.)

73a
(1) the class is so numerous that joinder of all mem­
bers is impracticable;
(2) there are questions of law or fact common to the
class;
(3) the claims or defenses of the representative par­
ties are typical of the claims or defenses of the class;
and
(4) the representative parties will fairly and ade­
quately protect the interests of the class.
Fed. R. Civ. P. 23(a). “[A] party must not only be pre­
pared to prove that there are in fact sufficiently numer­
ous parties, common questions of law or fact, typicality
of claims or defenses, and adequacy of representation,
as required by Rule 23(a),” but “also satisfy through ev­
identiary proof at least one of the provisions of Rule
23(b).” Comcast v. Behrend, 569 U.S. 27,133 S. Ct. 1426,
1432,185 L. Ed. 2d 515 (2013) (internal quotation marks,
citations, and emphasis omitted).
Plaintiffs contends that the putative class satisfies
Rule 23(b)(2), which requires that “final injunctive relief
or corresponding declaratory relief is appropriate re­
specting the class as a whole.” For certification under
Rule 23(b)(2), Plaintiffs must show that “declaratory re­
lief is available to the class as a whole” and that the chal­
lenged conduct is “such that it can be enjoined or de­
clared unlawful only as to all of the class members or as
to none of them.” Wal-Mart Stores, Inc. v. Dukes, 564
U.S. 338, 360 (2011).
Plaintiffs seek certification of a 23(b)(2) class as to
their statutory and due process claims. As they note,
however, in Jennings the Supreme Court remanded the

74a
case to the Ninth Circuit to address whether Rule 23 au­
thorized class certification of the due process claims.
138 S. Ct. at 832. The Ninth Circuit has recently asked
the parties in that case for supplemental briefing on the
question. In light of this uncertainty, and given that
addressing the due process claim is not necessary to res­
olution of Plaintiffs’ motions, the Court denies without
prejudice Plaintiffs’ motion to certify their due process
claim. Instead, the Court will analyze the motion
solely as to the statutory claim.
II.

Analysis
A.

Plaintiffs Have Satisfied Rule 23(a)

The Court may certify a class only where “(1) the
class is so numerous that joinder of all members is im­
practicable; (2) there are questions of law or fact com­
mon to the class; (3) the claims or defenses of the repre­
sentative parties are typical of the claims or defenses of
the class; and (4) the representative parties will fairly
and adequately protect the interests of the class.” Fed.
R. Civ. P. 23(A).
i.

Numerositv

A putative class satisfies the numerosity requirement
“if the class is so numerous that joinder of all members
is impracticable.” Fed. R. Civ. P. 23(a)(1). Impracti­
cability is not impossibility, and instead refers only to
the “difficulty or inconvenience of joining all members
of the class.” Harris v. Palm Springs Alpine Estates,
Inc., 329 F.2d 909, 913-14 (9th Cir. 1964) (citation omit­
ted). “While there is no fixed number that satisfies the
numerosity requirement, as a general matter, as class
greater than forty often satisfies the requirement, while

75a
one less than twenty-one does not.” Ries v. Ariz. Beverages USA LLC, 287 F.R.D. 523, 526 (N.D. Cal. Nov.
27, 2012).
Plaintiffs estimate that the class currently contains
at least 43 proposed members, 18 in California and 25 in
Arizona, but likely many more. (Dkt. No. 21-1 at 10
HH 6-9,18 If 5, 24 HH 5-6, 29 H 6, 35 1111 6,7.)3 These numbers make it impractical to bring all class members be­
fore the Court on an individual basis. Further, Plain­
tiffs estimate this number will grow each day as the gov­
ernment places additional individuals in custody who will
later reach six months of detention under § 1231(a)(6).
Accordingly, Plaintiffs have established that the class is
sufficiently numerous.
ii.

Commonality

“[Cjommonality requires that the class members’
claims depend on a common contention such that ‘deter­
mination of its truth or falsity will resolve an issue that
is central to the validity of each [claim] in one stroke. > >>
Mazza, 666 F.3d at 588-89 (quoting Dukes, 131 S. Ct. at
2551). “The plaintiff must demonstrate the capacity of
classwide proceedings to generate common answers to
common questions of law or fact that are apt to drive the
resolution of the litigation.” Id. (internal quotation
marks and citation omitted). To that end, the common­
ality requirement can be satisfied “by even a single
question.” Trahan v. U.S. Bank Nat’l Ass’n, No.
C 09-03111 JSW, 2015 WL 74139, at *5 (N.D. Cal. Jan.
3 Plaintiffs represent this number is at least 60, not 43, however
after a review of Plaintiffs’ declarations the Court counts only 43 in­
dividuals that are represented by Plaintiffs’ counsel or are being de­
tained under section 1231(a)(6) upon Plaintiffs’ counsel’s belief.

76a
6, 2015). It is not necessary that “[a]ll questions of fact
and law ... be common to satisfy the rule.” Hanlon
v. Chrysler Corp., 150 F.3d 1011, 1019 (9th Cir. 1998).
The Ninth Circuit has found “[t]he existence of shared
legal issues with divergent factual predicates is suffi­
cient, as is a common core of salient facts coupled with
disparate legal remedies within the class.” Id. “[T]he
commonality requirements asks us to look only for some
shared legal issue or a common core of facts.” Id. Ul­
timately, commonality “requires the plaintiff to demon­
strate the class members have suffered the same in­
jury.” Evon v. Law Offices of Sidney Mickell, 688 F.3d
1015, 1029 (9th Cir. 2012) (quoting Dukes, 131 S. Ct. at
2551).
Plaintiffs satisfy the commonality requirement, be­
cause they share a common legal question: whether
detention beyond six months without an individualized
bond hearing violates § 1231(a)(6) as interpreted by the
Ninth Circuit in Diouf. “This question will be posed by
the detention of every member of the class and their en­
titlement to a bond hearing will largely be determined
by its answer.” See Rodriguez v. Hayes, 591 F.3d 1105,
1123 (9th Cir. 2010) (finding commonality after peti­
tioner raised the common question of whether detention
of the putative class members “is authorized by statute,
and, in the alternative, that if their detention is author­
ized it violates the Fifth Amendment’s guarantee of due
process.”)
The Government’s arguments to the contrary are un­
persuasive. They assert “Plaintiffs’ proposed class lacks
commonality because the proffered class definition en­
compasses a broad range of individuals with different
factual bases for their claims, including diverse groups

77a
of aliens whose legal and factual interests differ consid­
erably from each other and from those of the proposed
class representatives.” (Dkt. No. 28 at 18:4-7.) The
Government is right that “members of the proposed
class do not share every fact in common or completely
identical legal issues”; however, “[t]his is not required
by Rule 23(a)(1).” Rodriguez, 591 F.3d at 1122. In­
stead, “the commonality requirement asks us to look
only for some shared legal issue or a common core of
facts” and the proposed members have met that here:
there is a shared legal question of whether continued de­
tention after six months without a bond hearing is per­
missible under § 1231(a)(6). See id. If the Court ulti­
mately rules in favor of Plaintiffs the relief will be the
same—each class member will be entitled to a bond
hearing regardless of individual circumstances. This is
sufficient to meet the commonality requirement.
The Government further argues “under Zadvydas’s
construction of § 1231(a)(6), the detention of named
Plaintiffs and their putative class does not raise a seri­
ous constitutional problem, let alone violate the Due Pro­
cess Clause, unless they can show that they are not sig­
nificantly likely to be removed in the reasonably fore­
seeable future.” See Zadvydas v. Davis, 533 U.S. 678,
701 (2001). The Government contends “this is a detailspecific analysis that necessarily requires a factual as­
sessment of, among other things, the likelihood that in­
dividuals will prevail on their requests for relief from re­
moval and, for those in withholding-only proceedings,
whether there are alternative countries to which they
could be removed.” (Dkt. No. 28 at 19:23-20:1.) How­
ever, this argument goes to the merits of Plaintiffs’ claim,
not whether the commonality requirement is met. It is

78a
the Government’s contention that Plaintiffs and the ab­
sent class members have to show they are not likely
to be removed in the reasonably foreseeable future.
Plaintiffs, on the other hand, assert that under section
1231(a)(6) as interpreted by the Ninth Circuit in Diouf
II, each Plaintiff and putative class member is entitled
to a bond hearing after six months regardless of whether
they are likely to be removed in the reasonable foresee­
able future. Whether a Plaintiff has or has not been
deemed to have a reasonable fear of return, whether
there are third-party countries where Plaintiffs can be
removed, or whether certain Plaintiffs may be consider­
ably more or less likely to be removed in the reasonably
foreseeable future has no bearing on the common statu­
tory question of whether under section 1231(a)(6) Plain­
tiffs are entitled to a bond hearing.
Finally, the Government emphasizes that Plaintiffs’
proposed class includes “not only individuals with rein­
stated removal orders who are detained pursuant to
§ 1231(a)(6), but also individuals ‘who have been issued
administratively final removal orders pursuant to
8 U.S.C. § 1228(b), as well as individuals who are await­
ing judicial review of the BIA’s denial of a motion to re­
open removal proceedings, see 8 U.S.C. § 1229a(c)(7),
and who have been issued a judicial stay of removal.
(Dkt. Nos. 28 at 21:9-13; 1 H 30.) It argues that these
Plaintiffs, although detained under the same section as
immigrants with reinstated removal orders, “are not
similarly situated to individuals in withholding-only pro­
ceedings” because they present “substantively different
legal claims challenging their final removal orders, are
potentially seeking different forms of relief in their re­
moval proceedings beyond the narrow relief available in
withholding-only proceedings, and therefore may be

79a
considerably more or less likely to be removed in the
reasonably foreseeable future.” However, whether
the immigrant was ordered removed under 8 U.S.C.
§ 1228(b) after committing an aggravated felony, is
seeking review of their motion to reopen removal pro­
ceedings under 8 U.S.C. § 1229a(c)(7), or has been issued
a judicial stay of removal, all proposed class members
are detained under the same statute: § 1231(a)(6).
And under this common statute Plaintiffs raise a legal
question that applies to all proposed class members re­
gardless of the underlying reason for their removal.
Accordingly, commonality is satisfied,
iii. Typicality
Rule 23(a)(3) also requires that “the [legal] claims or
defenses of the representative parties [be] typical of the
claims or defenses of the class.” Fed. R. Civ. P.
23(a)(3). “Typicality refers to the nature of the claim
or defense of the class representative and not on facts
surrounding the claim or defense.” Hunt v. Check Re­
covery Sys., Inc., 241 F.R.D. 505, 510 (N.D. Cal. Mar. 21,
2007) (citing Hanon v. Dataprods. Corp., 976 F.2d 497,
508 (9th Cir. 1992)). “The test of typicality is whether
other members have the same or similar injury, whether
the action is based on conduct which is not unique to the
named plaintiffs, and whether other class members have
been injured by the same course of conduct.” Evon,
688 F.3d at 1030 (internal quotation marks and citation
omitted). The typicality requirement ensures that
“the named plaintiffs claim and the class claims are so
interrelated that the interests of the class members will
be fairly and adequately protected in their absence.”
Gen. Tel. Co. of Sw. v. Falcon, 457 U.S. 147, 158 n.13

80a
(1982). Like the commonality requirement, the typi­
cality requirement is “permissive” and requires only
that the representative’s claims are “reasonably co­
extensive with those of absent class members; they need
not be substantially identical.” Hanlon, 150 F.3d at
1020.
Plaintiffs have established typicality. Plaintiffs’ claim
for a bond hearing “is reasonably co-extensive with the
claims of the class” because the class representatives, as
well as the class as a whole, have been detained pursuant
to section 1231(a)(6) for six months or longer and have
not received a bond hearing. See Rodriguez, 591 F.3d
at 1124. Although Plaintiffs and the proposed class were
ordered removed under different statutes and are at dif­
ferent points in the removal process and hence do not
raise identical claims, they all, as already discussed,
are detained under the same statute, raise the same
statutory-based argument, and are “alleged victims of
the same practice of prolonged detention while in immi­
gration proceedings.” See id.
The Government claims that Plaintiffs’ proposed
class lacks typicality for the same reasons it lacks com­
monality: that the factual variations in individual cases
and Plaintiffs’ differences in the likeliness of removal
preclude typicality. These arguments fail for the rea­
sons described above.
Accordingly the typicality requirement is also met.
iv. Adequacy of Representation
Rule 23(a)(4) imposes a requirement related to typi­
cality: that the class representative will “fairly and ad­
equately protect the interests of the class.” Fed. R.
Civ. P. 23(a)(4). The Court must ask: “(1) do the

81a
named plaintiffs and their counsel have any conflicts of
interest with other class members and (2) will the named
plaintiffs and their counsel prosecute the actions vigor­
ously on behalf of the class?” Evon, 688 F.3d at 1031
(quoting Hanlon, 150 F.3d at 1020); see also Brown v.
Ticor Title Ins., 982 F.2d 386, 290 (9th Cir. 1992) (noting
that adequacy of representation “depends on the quali­
fications of counsel for the representatives, an absence
of antagonism, a sharing of interests between represent­
atives and absentees, and the unlikelihood that the
suit is collusive”) (citations omitted); Fed. R. Civ. P.
23(g)(1)(B) (stating that “class counsel must fairly and
adequately represent the interests of the class”).
Both the named Plaintiffs and counsel will ade­
quately represent the class. First, Plaintiffs represent
that they will “think about the other class members and
act on those interests.” (Dkt. No. 21-1 at 52 1111 19-20,
59 11 12, 60 H 13). Second, Plaintiffs’ counsel is highly
experienced in class action litigation and immigration
law. Marc Van Der Hout has four decades of experi­
ence litigating immigration class actions. (Dkt. No. 211 at 65-69 1111 3, 8.) His associates, Judah Lakin and
Amalia Willie, are also experienced in class action litiga­
tion and practice exclusively in the area of immigration.
{Id. HH 10-13.) The four attorneys at Centro Legal de
la Raza, Alison Pennington, Lisa Knox, Julia Rabinovich
and Jesse Newmark, and the four ACLU attorneys, Mi­
chael Kaufman, Bardis Vakili, Julia Mass and Vasudha
Talla, have experience litigating complex immigration
cases. (Dkt. No. 21-1 at 71-77, 81-86.) Finally, Matt
Green has several years of experience in deportation de­
fense, including representing immigrants detained un­
der section 1231(a)(6). {Id. at 32-38.)

82a
The Government does not dispute the adequacy of
counsel. Instead it argues “the named Plaintiffs can­
not represent the interests of potential putative class
members who have already been denied or granted
withholding-only relief.” However, whether a detainee
has been denied or granted withholding-only relief, or
like Plaintiffs, have not yet had their request for relief
reviewed, has no bearing on the detainee’s right to a
bond hearing under section 1231(a)(6) as interpreted by
the Ninth Circuit in Diouf II. In other words, the grant­
ing or denial of withholding-only relief does not mean
that the detainee is entitled to a bond hearing, it only
means that the detainee’s removal process as to a par­
ticular country will or will not move forward. See
Padilla-Ramierz v. Bible, 882 F.3d 826, 836 (9th Cir.
2017) (clarifying that the decision at stake in withholdingonly proceedings is not whether the immigrant is to be
removed, but the “more limited decision of whether he
may be removed” to his country of origin). The de­
tainee can still remain in detention pursuant to
§ 1231(a)(6) while an alternative country is identified.
The Government also asserts “both named Plaintiffs
are detained as they have re-entered the United States
illegally” and therefore they “cannot represent the in­
terests of putative class members who do not have rein­
stated removal orders, but are detained pursuant to
§ 1231(a)(6).” However, the common legal question does
not turn on the nature of Plaintiffs’ removal but rather
the statute under which Plaintiffs have been detained.
Therefore Plaintiffs, who are detained pursuant to
§ 1231(a)(6), can adequately represent others detained
under § 1231(a)(6). The Government’s remaining chal­
lenges are only re-assertions of their commonality and

83a
typicality arguments. For the reasons described above,
those arguments fail.
Accordingly, adequacy is met.
B.

Rule 23(b)(2) is Satisfied

If all four prerequisites of Rule 23(a) are satisfied,
the Court must also find that Plaintiffs “satisfy through
evidentiary proof” at least one of the three subsections
of Rule 23(b). Comcast Corp. v. Behrend, 133 S. Ct. 1426,
1432 (2013). Rule 23(b) sets forth three general types
of class actions. See Fed. R. Civ. P. 23(b)(l)-(b)(3).
Of these types, Plaintiffs seek certification under Rule
23(b)(2). The Court can certify a Rule 23(b)(2) class if
“the party opposing the class has acted or refused to act
on grounds that apply generally to the class, so that final
injunctive relief or corresponding declaratory relief is
appropriate respecting the class as a whole.” Fed. R.
Civ. P. 23(b)(2). “Rule 23(b)(2) applies only when a sin­
gle injunction or declaratory judgment would provide
relief to each member of the class.” Dukes, 564 U.S. at
360. “[Ujnlike Rule 23(b)(3), a plaintiff does not need
to show predominance of common issues or superiority
of class adjudication to certify a Rule 23(b)(2) class.”
In re Yahoo Mail Lit., 308 F.R.D. 577, 587 (N.D. Cal.
May 26, 2015). Rather, “[i]n contrast to Rule 23(b)(3)
classes, the focus [in a Rule 23(b)(2) class] is not on the
claims of the individual class members, but rather whether
[Defendant] has engaged in a ‘common policy.’” Id. at
599.
The Rule 23(b)(2) requirements are also met. It is
the Government’s uniform policy that bond hearings are
not required under § 1231(a)(6) for those detained for

84a
greater than six months. Further the Government “re­
fuses to act on grounds that apply generally to the class”
—class members are denied the opportunity to request
release on bond by an immigration judge. Plaintiffs
seek declaratory and injunctive relief that would benefit
all proposed class members: individualized bond hear­
ings after six months of detention.
The Government argues Plaintiffs cannot satisfy
Rule 23(b)(2) because 8 U.S.C. § 1252(f)(1) deprives this
Court of jurisdiction to grant relief on Plaintiffs’ statu­
tory claims on a classwide basis. Section 1252(f)(1)
provides that “no court (other than the Supreme Court)
shall have jurisdiction or authority to enjoin or restrain
the operation of [8 U.S.C. §§ 1221-1232] other than with
respect to the application of such provisions to an indi­
vidual alien against whom proceedings under such part
have been initiated.” 8 U.S.C. § 1252(f)(1). Respond­
ents in Rodriguez made the same argument to which the
Ninth Circuit retorted “Respondents are doubly
mistaken.” Rodriguez, 591 F.3d at 1119. 8 U.S.C.
§ 1252(f)(1) does not bar either declaratory or injunctive
class-wide relief. Id. at 1120. “Section 1252(f) pro­
hibits only injunction of the operation of the detention
statutes, not injunction of a violation of the statutes.”
Id. (internal quotations omitted). And the text of the
Act clearly shows “that Section 1252(f) was not meant to
bar classwide declaratory relief.” Id. at 1119.
As the Rule 23(a) and (b)(2) requirements are met,
Plaintiffs’ motion for class certification is GRANTED as
to their statutory claims. See Parsons v. Ryan, 754
F.3d 657, 686 (9th Cir. 2014) (“the primary role of [Rule
23(b)(2)] has always been the certification of civil rights
class actions”).

85a
PRELIMINARY INJUNCTION
Plaintiffs request this Court issue a class wide pre­
liminary injunction “enjoining the government from de­
taining class members for more than 180 days without
affording them a bond hearing” before an IJ. (Dkt. No.
22 at 8:8-11.)
A preliminary injunction is an “extraordinary rem­
edy.” Winter v. Nat. Res. Defense Council, 555 U.S. 7,
24 (2008). “A plaintiff seeking a preliminary injunction
must establish that he is likely to succeed on the merits,
that he is likely to suffer irreparable harm in the ab­
sence of preliminary relief, that the balance of equities
tips in his favor, and that an injunction is in the public
interest.” Id. at 20. Alternatively, “if a plaintiff can
only show that there are serious questions going to the
merits—a lesser showing than likelihood of success on
the merits—then a preliminary injunction may still is­
sue if the balance of hardships tips sharply in the plain­
tiffs favor, and the other two Winter factors are satis­
fied.” Shell Offshore, Inc. v. Greenpeace, Inc., 709 F.3d
1281, 1291 (9th Cir. 2013) (internal citation and quota­
tion marks omitted). In this respect, the Ninth Circuit
employs a sliding scale approach, wherein “the elements
of the preliminary injunction test are balanced so that a
stronger showing of one element may offset a weaker
showing of another.” Alliance for the Wild Rockies v.
Cottrell, 632 F.3d 1127,1131 (9th Cir. 2011). A “serious
question” is one on which the movant “has a fair chance
of success on the merits.” Sierra On-Line, Inc. v.
Phoenix Software, Inc., 739 F.2d 1415, 1421 (9th Cir.
1984) (internal citation omitted).

86a
A.

Likelihood of Success on the Merits

Plaintiffs’ likelihood of success on their now-certified
statutory claim turns on whether Diouf II is still good
law in the Ninth Circuit. In Diouf II, the Ninth Circuit
held that immigrants detained pursuant to section
1231(a)(6) for more than six months are entitled to a
bond hearing before an immigration judge. 634 F.3d at
1086,1091. Thus, under Diouf II, Plaintiffs and the class
members are entitled to an individual bond hearing be­
fore an immigration judge and the likelihood of success
prong is satisfied. The Government nonetheless in­
sists that Diouf II was overruled by the United States
Supreme Court’s decision in Jennings v. Rodriguez, 138
S. Ct. 830 (2018.)
This Court is required to follow Diouf II unless the
theory or underlying reasoning of Jennings is “clearly
irreconcilable” with Diouf II. Miller v. Gammie, 335
F.3d 889, 900 (9th Cir. 2003).
The “clearly irreconcilable” requirement is “a high
standard.” So long as the court “can apply our prior
circuit precedent without running afoul of the inter­
vening authority” it must do so. “It is not enough
for there to be some tension between the intervening
higher authority and prior circuit precedent, or for
the intervening higher authority to cast doubt on the
prior circuit precedent.”
United States v. Robertson, 875 F.3d 1281,1291 (9th Cir.
2017) (internal quotation marks and citations omitted).
To decide whether Jennings is clearly irreconcilable
with Diouf II, several cases must be reviewed.
In Zadvydas v. Davis, 533 U.S. 678 (2001), the Su­
preme Court applied the doctrine of constitutional

87a
avoidance4 to construe section 1231(a)(6) “to mean that
an alien who has been ordered removed may not be de­
tained beyond ‘a period reasonably necessary to secure
removal,’” and that “six months is a presumptively rea­
sonable period.” Jennings, 138 S. Ct. at 843. After
being detained for six months, and if the noncitizen pro­
vides reason to believe he will not be removed in the rea­
sonably foreseeable future, “the Government must ei­
ther rebut that showing or release the alien.” Zadvydas, 533 U.S. at 701.
Seven years later, in Casas-Castrillon v. Department
of Homeland Security, 535 F.3d 942 (9th Cir. 2008), the
Ninth Circuit reviewed 8 U.S.C. section 1226(a). The
court held that to construe the statute to allow pro­
longed detention without adequate procedural protec­
tions, that is, bond hearings before an immigration judge,
“would raise serious constitutional concerns.” Id. at
950. Applying the canon of constitutional avoidance,
the court therefore held that section 1226(a) “must be
construed as requiring the Attorney General to provide
the alien without such a hearing.” Id. (emphasis in orig­
inal). In Dioufll, the Ninth Circuit extended the holding
of Casas-Castrillon to aliens detained under § 1231(a)(6).
As was the case in Casas-Castrillon, prolonged de­
tention under § 1231(a)(6), without adequate proce­
dural protections, would raise “serious constitutional
concerns.” Casas-Castrillon, 535 F.3d at 950. To
4 “The canon of constitutional avoidance is a ‘cardinal principle’ of
statutory interpretation. [W]hen an Act of Congress raises a seri­
ous doubt as to its constitutionality, this Court will first ascertain
whether a construction of the statute is fairly possible by which the
question may be avoided.” Diouf II, 634 F.3d 1086 n.7 (internal
quotation marks and citations omitted).

88a
address those concerns, we apply the canon of consti­
tutional avoidance and construe § 1231(a)(6) as re­
quiring an individualized bond hearing, before an im­
migration judge, for aliens facing prolonged deten­
tion under that provision. See id. at 951. Such al­
iens are entitled to release on bond unless the gov­
ernment establishes that the alien is a flight risk or
will be a danger to the community.
See id. at 1086. Under DioufII, then, the Government is
required to provide Plaintiffs and the class members a
bond hearing before an immigration judge.
The Supreme Court decided Jennings v. Rodriguez
in February of this year. Jennings reviewed the Ninth
Circuit’s decision in Rodriguez v. Robbins, 804 F.3d
1060 (9th Cir. 2015). According to the Supreme Court,
in Rodriguez v. Robbins the Ninth Circuit:
relying heavily on the canon of constitutional avoid­
ance, . . . construed §§ 1225(b) and 1226(c) as im­
posing an implicit 6-month time limit on an alien’s de­
After that point,
tention under these sections,
the Court of Appeals held, the Government may con­
tinue to detain the alien only under the authority of
§ 1226(a). The Court of Appeals then construed
§ 1226(a) to mean that an alien must be given a bond
hearing every six months and that detention beyond
the initial 6-month period is permitted only if the
Government proves by clear and convincing evidence
that further detention is justified.
Jennings, 138 S. Ct. at 839. The Supreme Court then
went on to reverse the Ninth Circuit. First, the Court
held that the canon of constitutional avoidance—while a
valid doctrine—could not be applied to sections 1225(b)

89a
and 1226(c) because those statutes required mandatory
detention for a certain period rather than the discretion­
ary detention called for by section 1231(a)(6). Id. at
842-44, 46-47. Section 1226(a), however, contains the
discretionary language “may detain” which the Court
held could render the statute ambiguous and thus per­
mit the application of the canon of constitutional avoid­
ance. With respect to section 1226(a), the Supreme
Court stated:
The Court of Appeals ordered the Government to pro­
vide procedural protections that go well beyond the in­
itial bond hearing established by existing regulations
—namely, periodic bond hearings every six months
in which the Attorney General must prove by clear
and convincing evidence that the alien’s continued
detention is necessary. Nothing in § 1226(a)’s text
—which says only that the Attorney General “may
release” the alien “on . . . bond”—even remotely
supports the imposition of either of those require­
ments. Nor does § 1226(a)’s text even hint that the
length of detention prior to a bond hearing must spe­
cifically be considered in determining whether the al­
ien should be released.
Jennings, 138 S. Ct. 830, 847-48.
The Government argues that because in Jennings
the Supreme Court held that “‘[N]either § 1225(b)(1)
nor § 1225(b)(2) says anything whatsoever about bond
hearings;’ § 1226(c) ‘imposes an affirmative prohibition
on releasing detained aliens,’ except under an express
exception; and ‘[n]othing in § 1226(a)’s text . . . even
remotely supports the imposition’ of a bond hearing re­
quirement” Diouf II is clearly irreconcilable with Jen­
nings. (Dkt. No. 27 at 9.) Not so.

90a
First, the Supreme Court held that the canon of con­
stitutional avoidance—which the Ninth Circuit used to
interpret section 1225(b)(1) and (2)—could not be ap­
plied to those statutes to imply the procedural require­
ment of a bond hearing because the statutes “mandate
detention until a certain point and authorize release
prior to that point only under limited circumstances.”
Id. at 844. In doing so, the Court specifically distinguished
its earlier decision in Zadvydas which applied the canon of
constitutional avoidance to section 1231(a)(6) —the statute
at issue here—to find certain procedural requirements.
Id. (“While Zadvydas found § 1231(a)(6) to be ambiguous,
the same cannot be said of §§ 1225(b)(1) and (b)(2)”); see
also Hurtado-Romero v. Sessions, 2018 WL 2234500
(N.D. Cal. May 16, 2018) (noting that the factors negat­
ing ambiguity, and thus the appropriateness of the ap­
plication of the canon of constitutional avoidance, are
not present in section 1231(a)(6)). Thus, far from being
clearly irreconcilable with Diouf II’s application of the
canon of constitutional avoidance to section 1231(a)(6),
Jennings reaffirms the canon’s application to that stat­
ute.
Second, Jennings does not overrule Diouf II’s hold­
ing that pursuant to the application of the canon of con­
stitutional avoidance section 1231(a)(6) must be con­
strued as requiring an individual bond hearing for pro­
longed detention. The Government argues that since
Jennings held that section 1226(a) cannot be construed
to require periodic bond hearings every six months at
which the government bears the burden of proof by clear
and convincing evidence because nothing in the text of the
statute hints at those requwements, 138 S. Ct. 847-48,
section 1231(a)(6) cannot be interpreted as requiring a
bond hearing for prolonged detention. But Jennings

91a
said nothing about section 1231(a)(6) not being capable
of being plausibly construed as requiring a bond hearing
for prolonged detention. To the contrary, Jennings
specifically did not overrule Zadvydas and in Zadvydas
the Supreme Court used the canon of constitutional
avoidance to construe section 1231(a)(6) to include pro­
cedural requirements not specifically set forth in the
statute. Thus, the Government’s interpretation of Jen­
nings is in tension with Zadvydas. See HurtadoRomero, 2018 WL 2234500 at *2. This Court can find
Jennings clearly irreconcilable with Dioufll only by ig­
noring Zadvydas. However, even if “recent Supreme
Court jurisprudence has perhaps called into question
the continuing viability of [its precedent], [the lower
courts] are bound to follow a controlling Supreme Court
precedent until it is explicitly overruled by that Court.”
Nunez-Reyes v. Holder, 646 F.3d 684, 692 (9th Cir.
2011).
Jennings is in tension with Diouf II and perhaps
even calls it and Zadvydas into doubt. But such cir­
cumstances do not permit this federal trial court to not
follow Diouf II. See Robertson, 875 F.3d at 1291. As
DioufII is not clearly irreconcilable with Jennings it re­
mains good law in this Circuit. Plaintiffs have there­
fore shown a likelihood of success on the merits of their
INA and APA statutory claims that under section
1231(a)(6) the Government must provide Plaintiffs and
the class members an individualized bond hearing.
B.

Remaining Injunction Factors

The Government does not address the remaining pre­
liminary injunction factors. Instead, it simply asserts
that if the Court considers them, “the key point is that

92a
the public interest favors applying federal law cor­
rectly.” As Jennings is not clearly irreconcilable with
Dioufll, the public interest weighs in favor of the Gov­
ernment providing Plaintiffs and the class member bond
hearings as required by Dioufll.
The remaining factors, irreparable harm and balance
of equities, also weigh in favor of an injunction. Plain­
tiffs face compounding harm with each additional day
they remain in custody without a bond hearing, as re­
quired by existing Ninth Circuit authority. See Villalta
v. Sessions, No. 17-CV-05390-LHK, 2017 WL 4355182, at
*3 (N.D. Cal. Oc. 2, 2017). Further, the harm to Plaintiffs
in remaining in detention without a bond hearing clearly
outweighs any “harm” to the Government in providing
bond hearings.
In sum, the four preliminary injunction factors weigh
in Plaintiffs’ favor.
CONCLUSION
For the reasons described above, Plaintiffs’ motion
for class certification of section 1231(a)(6) detainees in
the Ninth Circuit is GRANTED as to their statutory
claims. Van Der Hout, Brigagliano & Nightingale, LLP,
Centro Legal De La Raza, Matthew Green, ACLU-SC,
ACLU-NC, and ACLU-SD are appointed as class coun­
sel.
Plaintiffs’ motion for a preliminary injunction under
the INA and APA is also GRANTED. The Govern­
ment is enjoined from detaining Plaintiffs and the class
members pursuant to section 1231(a)(6) for more than
180 days without a providing each a bond hearing before
an IJ as required by Dioufll.

93a
This Order disposes of Docket Nos. 21 and 22.
IT IS SO ORDERED.
Dated:

June 5, 2018
/s/ JACQUELINE SCOTT CORLEY
Jacqueline Scott Corley
United States Magistrate Judge

